<html>
<title> - MISCELLANEOUS WATER & POWER BILLS</title>
<body><pre>[Senate Hearing 109-677]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-677
 
                   MISCELLANEOUS WATER & POWER BILLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                   S. 1812                        S. 1965
 
                  S. 2129                         S. 2470
 
                  S. 2502                         S. 3404
 
                  H.R. 2383                     H.R. 4204



                               __________

                             JUNE 28, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

30-834 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                    LISA MURKOWSKI, Alaska, Chairman
                  GORDON SMITH, Oregon, Vice Chairman

LARRY E. CRAIG, Idaho                TIM JOHNSON, South Dakota
RICHARD M. BURR, North Carolina      BYRON L. DORGAN, North Dakota
MEL MARTINEZ, Florida                RON WYDEN, Oregon
CONRAD BURNS, Montana                DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                MARIA CANTWELL, Washington
JAMES M. TALENT, Missouri            KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              subcommittee

                          Nate Gentry, Counsel
                    Mike Connor, Democratic Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator From Idaho....................    21
Dieker, Richard, Secretary-Manager, Yakima-Tieton Irrigation 
  District.......................................................    22
Hatch, Hon. Orrin G., U.S. Senator From Utah.....................     2
Johnson, Hon. Tim, U.S. Senator From South Dakota................    11
Macy, Richard, Chairman, North Unit Irrigation District, Madras, 
  OR.............................................................    13
Maisch, Einar L., Director of Strategic Affairs, Placer County 
  Water Agency...................................................    23
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Peltier, Jason, Deputy Assistant Secretary for Water and Science, 

  Department of the Interior.....................................    10
Rinne, William E., Acting Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     2
Smith, Hon. Gordon, U.S. Senator From Oregon.....................    12

                                APPENDIX

Additional material submitted for the record.....................    39


                   MISCELLANEOUS WATER & POWER BILLS

                              ----------                              


                        WEDNESDAY JUNE 28, 2006

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirsken Senate Office Building, Hon. Lisa 
Murkowski presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. This hearing will come to order. I'd 
like to welcome you all this afternoon to the Water and Power 
Subcommittee.
    We have eight bills that are before the subcommittee this 
afternoon: S. 1812, sponsored by Senator Hatch, which 
authorizes the participation in a conjunctive use project in 
Utah; S. 1965, sponsored by Senator Cantwell, which conveys 
certain buildings and land of the Yakima Project; S. 2129, 
sponsored by Senator Crapo, conveying certain land and 
improvements on the Minidoka Project; S. 2470, sponsored by 
Senator Craig, authorizing the early repayment of construction 
costs within the A&B Irrigation District; S. 2502, sponsored by 
Senator Smith, which amends the repayment contract between the 
Secretary of the Interior and the North Unit Irrigation 
District; S. 3404, sponsored by Senator Johnson, extending the 
date of the authorization for the Mni Wiconi Rural Water Supply 
Project; H.R. 2383, sponsored by Representative Nunes, renaming 
the Tracy Pumping Plant; and H.R. 4204, sponsored by 
Representative Doolittle, transferring ownership of the 
American River Pump Station Project.
    I'd like to welcome the administration witnesses: Mr. 
William Rinne, the Acting Commissioner of the Bureau of 
Reclamation, and Mr. Jason Peltier, the Deputy Assistant 
Secretary of Water and Science. And we have some additional 
witnesses that will be joining us on the second panel.
    The subcommittee has received some written testimony on 
several of the bills before the subcommittee today, and that 
testimony will be made part of the official record.
    So with that, why don't we invite up our two administration 
witnesses.
    Mr. Rinne, am I pronouncing your name correctly?
    Mr. Rinne. Yes.
    Senator Murkowski. Makes it easier, doesn't it? Nice to 
have you here, and you, as well, Mr. Peltier.
    With that, why don't we go ahead and start off with you, 
Mr. Rinne.
    [The prepared statement of Senator Hatch follows:]
  Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator From Utah, 
                               on S. 1812
    Thank you, Mr. Chairman, for holding this hearing today. And thank 
you for giving me the opportunity to express my support for S. 1812, 
the Juab County Surface and Ground Water Study and Development Act of 
2005. S. 1812, if enacted, would amend the Reclamation Projects 
Authorization and Adjustment Act of 1992 (P.L. 102-575) to allow Juab 
County, Utah to receive Central Utah Project (CUP) funds. Mr. Chairman, 
as you know, the House of Representatives approved a companion bill 
(H.R. 4013) earlier this month.
    Under the original plan for the Bonneville Unit of the Central Utah 
Project, several counties in central Utah, including Juab, were to be 
delivered supplemental water through an irrigation and drainage 
delivery system. Over the years, however, the planning requirements for 
the Bonneville Unit have changed and, presently, most of the water 
allocated to the Bonneville Unit of the Central Utah Project is planned 
for use in Wasatch, Salt Lake, and Utah Counties.
    Many central Utah counties have elected not to participate in the 
plan and no longer pay the requisite taxes to the Central Utah Water 
Conservancy District, the political division of the State of Utah 
established to manage CUP activities in the state. But, unlike other 
central Utah counties, Juab County remained active in the Central Utah 
Water Conservancy District's efforts and has paid millions in property 
taxes to the district. Unfortunately, the County has yet to reap any of 
the benefits of its membership.
    My bill would simply allow Juab County to use Central Utah Project 
funds to complete water resource development projects. It will enable 
the County to better utilize their existing water resources and will 
ensure that farmers, ranchers, and other citizens of Juab County have a 
reliable water supply. It will give the citizens of Juab County the 
opportunity to benefit from the system they have financially supported 
for so many years.
    Once again, Mr. Chairman, thank you for considering this important 
measure today. I urge the committee to swiftly approve the measure and 
send it to the full Senate for further consideration.

 STATEMENT OF WILLIAM E. RINNE, ACTING COMMISIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Rinne. Thank you, Madam Chairwoman.
    I'm Bill Rinne, Acting Commissioner for the Bureau of 
Reclamation. I'm pleased to present the Department of the 
Interior's views on seven bills before the subcommittee today.
    Madam Chairwoman, I would request my full statement on each 
of these bills be submitted for the record, and I'll also do my 
best and stay within the 5-minute time allotment here.
    Senator Murkowski. Your full statement will be included as 
part of the record.
    Mr. Rinne. Just a minute or two over here. S. 1965 would 
authorize the Secretary of the Interior to convey buildings and 
lands of the Yakima Project in Washington to the Yakima-Tieton 
Irrigation District. Reclamation supports S. 1965. The transfer 
proposed in the bill is the culmination of a collaborative 
process and should be a model for other districts. The full 
cost of the land and the facilities to be transferred under 
this bill have been repaid pursuant to the district's original 
repayment contract. All the lands were acquired by Reclamation 
and the repayment contract incorporated their value and the 
costs of construction. This title transfer will give the 
district more local control of buildings for their use and 
eliminate duplicative administrative obligations for the 
district.
    Turning to S. 2129, Reclamation also supports this 
legislation, which would authorize the Secretary to convey 
facilities and lands of the Gooding Division of the Minidoka 
Project in Idaho to the American Falls Reservoir District No. 
2. The primary feature of the proposed transfer is the Milner-
Gooding Canal. Reclamation and the district have collaborated 
to enter into a transfer agreement, and have also worked with 
the bill sponsors on the legislation under consideration today.
    This title transfer will eliminate periodic facilities 
reviews and paperwork that currently requires significant staff 
time. In addition, Reclamation can improve public management of 
remaining properties by transferring specific parcels to other 
governmental units.
    S. 2470 would authorize early repayment to Reclamation for 
works within the Minidoka Project's A&B Irrigation Districts in 
Idaho. Reclamation supports this bill with some minor 
modifications.
    The A&B Irrigation District is the only district in the 
Minidoka Project that remains subject to the acreage limitation 
provisions of the Federal Reclamation law. In order to provide 
consistency for the landowners in the A&B Irrigation District, 
we support S. 2470's approach to allow early repayment. 
However, we recommend that the bill be amended in order to 
ensure consistency for all landowners within the project. 
There's Reclamation's policy to require landowners who want to 
pay early to pay out all their land in the subject district, 
and not just a portion of their land. This concept is included 
in the recently enacted Southern Oregon Bureau of Reclamation 
Repayment Act of 2005, which provided early payout authority 
for two districts in Oregon.
    As currently written in S. 2470, it can be interpreted to 
provide the opportunity for landowners to pay out either all of 
their land or only a portion of that land. The latter is a 
benefit that other landowners do not enjoy and would inject 
inconsistency into the administration of the acreage limitation 
provisions. We believe our concerns can be addressed with a 
simple revision to S. 2470, and we stand ready to provide 
revised language.
    S. 2502 will resolve limitations on the North Unit 
Irrigation District's contract with the Deschutes Project, 
enabling the district to be--to more efficiently manage its 
water supplies. Because Congress approved the district's 
contract, and contracts which are beyond the scope of the 
contracting officer's authority must also be approved by 
Congress. In order for the district to be eligible for State-
financed water conservation funds, Oregon law requires 
districts to dedicate a portion of conserved water to in-stream 
flows.
    Currently, the project authorization and the district's 
contract do not allow it to dedicate water to in-stream uses. 
The district has self-financed over $8 million of these 
conservation activities and would like to be eligible for the 
State program. S. 2502 amends a district contract to make this 
possible. The bill would also allow the district to deliver the 
Deschutes Project water to families who are irrigating 
approximately 9,000 acres of land in the district with non-
project water diverted by the district's Crooked River pumping 
plant. These lands exceed the current contract ceiling of the 
49,818 acres that are within the district's boundary and have 
pertinent water rights issued by the State. Using the Deschutes 
Project water on these lands will allow the district to devote 
less Crooked River water and leave more water in-stream. 
Reclamation supports this bill.
    S. 3404 recognizes the Mni Wiconi Rural Water System by--
reauthorizes the Mni Wiconi Rural Water System by extending the 
sunset for completion of project construction from 2008, as 
currently authorized, until 2012. With construction expected to 
be nearly 70 percent complete by the end of the fiscal year 
2006, we are committed to completing project construction in a 
timely manner. However, given the amount of work yet to be 
completed, we believe a more appropriate extension date would 
be 2013, and we recommend that the bill be amended accordingly. 
We support the legislation to extend the sunset date, and look 
forward to working with the sponsors and the committee to 
address these issues.
    Turning to H.R. 2383, Reclamation is neutral on the 
proposed bill to rename the Tracy Pumping Plant to the C.W. 
``Bill'' Jones Pumping Plant. However, Mr. Jones' contribution 
to Central Valley agriculture are well known. We believe that 
Mr. Jones contributed greatly to the building of common 
understanding between Reclamation and its customers.
    Finally, the Department also supports H.R. 4204, which 
would build and transfer ownership of the American River Pump 
Station Project to the Placer County Water Agency--PCWA--upon 
completion of construction. PCWA constructed a permanent 
pumping plant on the north fork of the American River in the 
late 1960's. In 1967, Reclamation initiated construction of 
Auburn Dam, which was halted in 1975. Reclamation removed the 
PCWA Pumping Plant, located upstream of the proposed dam site, 
at the beginning of construction. The agreement between 
Reclamation and PCWA obligated Reclamation to deliver 25,000 
acre-feet of water per year to PCWA until Auburn Dam was 
completed, at which time PCWA would divert all of its water 
from the reservoir.
    We currently install a temporary pump station every April 
and remove it in November because of high winter flows that 
typically inundate the site. Because of urbanization in Placer 
County, PCWA will soon require year-round access to its full 
water supply from the Middle Fork Project. Demands 
substantially exceed the capacity of the temporary facility and 
configuring the pump station each year is becoming increasingly 
costly.
    In 2003, Reclamation and PWCA entered into a cost-share 
agreement for the construction of a permanent pumping plant, 
and under the agreement, PCWA will pay all costs for a 
permanent pumping plant that provides for delivery of water at 
a capacity greater than Reclamation's obligations, and the 
title will be transferred to PCWA upon completion of the 
permanent pumping plant, scheduled for 2008. Legislation is 
necessary to complete the title transfer, and we support its 
passage.
    Thank you again for the opportunity to testify today, and 
I'm pleased to answer any questions the subcommittee may have 
on any bills.
    [The prepared statements of Mr. Rinne follow:]
     Prepared Statements of William E. Rinne, Acting Commissioner, 
                         Bureau of Reclamation
                                s. 1965
    Madam Chairwoman, members of the Subcommittee, I am Bill Rinne, 
Acting Commissioner of Reclamation for the Bureau of Reclamation. I am 
pleased to provide the Department of the Interior's views on S. 1965, 
legislation to authorize the Secretary of the Interior to convey 
certain buildings and lands of the Yakima Project in Washington to the 
Yakima-Tieton Irrigation District. We support this legislation and 
thank the committee for considering it today.
    The transfer proposed in S. 1965 is the culmination of a 
collaborative and cooperative process and should be a model for other 
districts and groups interested in title transfer.
    What we experienced in this case, and what has made other title 
transfers successful, is that Reclamation and the non-Federal entities 
interested in title transfer followed a simple plan--identifying 
obstacles and dealing with them at the local or regional level before 
drafting legislation.
    S. 1965 would authorize the title transfer of federally owned 
buildings and lands to the Yakima-Tieton Irrigation District. 
Reclamation and the Yakima-Tieton Irrigation District have worked 
collaboratively and efficiently to lay the groundwork for this title 
transfer. Thanks to the cooperative efforts of the District, the 
process has successfully addressed all the elements of Reclamation's 
policy framework that guides our title transfers.
    One of the Administration's goals in title transfer is to protect 
the financial interest of the United States, that is, to make sure that 
the United States is no worse off financially following title transfer. 
In this case, the full costs of the lands, buildings and facilities to 
be transferred have already been repaid pursuant to the district's 
original repayment contract. All the lands to be transferred under this 
legislation were acquired by Reclamation when the project was built. 
Thus the original repayment contract incorporated their value together 
with the costs associated with the construction of the facilities and 
buildings. There are no ongoing revenue streams associated with these 
lands and facilities, and the value of all the assets has been repaid. 
The district has fulfilled its repayment obligation under the contract 
and thus no payment is required.
    On December 6, 2004, Reclamation and the District entered into a 
title transfer agreement for the federally owned facilities (Contract 
No. 5-07-10-L1658) which spells out the terms and conditions for this 
title transfer and which is the basis for the transfer of the 
facilities in the legislation. Subsequently, Reclamation worked with 
the District and with Representative Hastings and Senator Cantwell on 
how to structure the legislation to authorize the implementation of the 
title transfer agreement.
    We believe that this title transfer will give the District more 
local control of buildings that were constructed for their use. It will 
also eliminate the need for duplicative and unnecessary administrative 
obligations that exist for the District based on the fact that title to 
the buildings and associated properties is held by the United States. 
For example, the District currently has to seek approval for utility 
work, building improvements, and similar activities by virtue of the 
fact that the buildings and properties are Federally owned.
    For Reclamation, the title transfer will obviate the periodic 
facility reviews and processing of paperwork that currently consumes 
significant staff time.
    In summary, we support passage of S. 1965. It is a good bill, a 
good title transfer, and reflects a cooperative and cost effective 
process that will provide a benefit to the District and to Reclamation.
    That concludes my testimony; I would be pleased to answer any 
questions.
                                s. 2129
    Madam Chairwoman and members of the Subcommittee, I am Bill Rinne, 
Acting Commissioner of the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on S. 2129, legislation 
to authorize the Secretary of the Interior to convey certain 
facilities, buildings and lands of the Gooding Division of the Minidoka 
Project in Idaho to the American Falls Reservoir District #2. We 
support this legislation and thank the committee for considering it 
today.
    The transfer proposed in S. 2129 is the culmination of a 
collaborative and cooperative process and should be a model for other 
districts and groups interested in title transfer. What we experienced 
in this case, and what has made other title transfers successful, is 
that Reclamation and the non-Federal entities interested in title 
transfer followed a simple plan--identifying obstacles and dealing with 
them at the local or regional. level before drafting legislation.
    S. 2129 would authorize the title transfer of federally owned 
facilities, buildings, and lands to the American Falls Reservoir 
District #2. The primary feature of the proposed title transfer is the 
Milner-Gooding Canal. Reclamation and the American Falls Reservoir 
District #2 have worked collaboratively and efficiently to successfully 
address all the elements of Reclamation's title transfer policy 
framework.
    One of the Administration's goals in title transfer is to protect 
the financial interest of the United States, that is, to make sure that 
the United States is in the same or better financial position following 
title transfer. In this case, the full costs of all facilities, 
buildings, and acquired lands to be transferred, including the Milner-
Gooding Canal, have already been repaid pursuant to the District's 
amendatory repayment contract. The District has also identified some 
withdrawn lands for which they would like to gain title and have agreed 
to pay the fair market appraised value for these lands. There are no 
ongoing revenue streams associated with the facilities, buildings, and 
lands. Because the District has fulfilled its repayment obligation 
under its contract, payment is required only for the additional 
withdrawn lands that the District has proposed for title transfer.
    On October 3, 2005, Reclamation and the District entered into a 
title transfer agreement for the federally owned facilities (Contract 
No. 5-07-10-L1688) that spells out the terms and conditions for this 
title transfer and that is the basis for the transfer of the facilities 
in the legislation. Subsequently, Reclamation worked with the District 
and the bill sponsors regarding how to structure the legislation to 
authorize the implementation of the title transfer agreement.
    We believe that this title transfer will give the District more 
local control of facilities that were constructed for its use. The bill 
will also eliminate the need for duplicative and unnecessary 
administrative obligations that exist for the District because title to 
the facilities, buildings, and lands is held by the United States. For 
example, the District currently has to seek approval from Reclamation 
for certain canal maintenance, utility work, and building improvement.
    For Reclamation, the title transfer will eliminate the periodic 
facility reviews and processing of paperwork that currently consumes 
significant staff time. In addition, with the proposed transfer of the 
Milner-Gooding Canal and other Gooding Division facilities to the 
District, Reclamation can improve public management of remaining 
dispersed properties by transferring specific parcels to other 
governmental agencies. Accordingly, the legislation directs Reclamation 
to transfer title for specific smaller parcels to the National Park 
Service, the State of Idaho, and the City of Gooding, since those 
entities currently manage the relevant lands. Regarding the transfer of 
39.72 acres of land to the Idaho Department of Fish and Game, we note 
that existing law codified at 16 U.S.C. 667b authorizes the General 
Services Administration to transfer land to States for conservation 
purposes. This authority has been used to transfer other Federal lands 
to State ownership.
    The title transfer also involves Reclamation relinquishing title 
for withdrawn lands to the Bureau of Land Management (BLM). These 
associated transfers will place those properties more directly under 
the administrative control of the appropriate governmental entities and 
will allow Reclamation to better focus on its core mission of 
delivering water and power. Further, Reclamation has worked closely 
with the National Park Service, the State of Idaho, the City of 
Gooding, and the BLM to craft the language that appears in the transfer 
agreement. We look forward to continuing those close and cooperative 
relationships once this legislation has been adopted to implement the 
agreement in a timely manner.
    In summary, we support passage of S. 2129. It is a good bill, a 
good title transfer, and reflects a cooperative and cost effective 
process that will provide a benefit to the District and to Reclamation.
    That concludes my testimony; I would be pleased to answer any 
questions.
                                s. 2470
    Madam Chairwoman and members of the Subcommittee, I am Bill Rinne, 
Acting Commissioner of the Bureau of Reclamation. Thank you for the 
opportunity to provide the Administration's views on S. 2470, the 
Southern Idaho Bureau of Reclamation Repayment Act. The bill, which we 
support with some modifications, would authorize early repayment of 
obligations to the Bureau of Reclamation within the A&B Irrigation 
District of Idaho.
    The A&B Irrigation District is the only district in the Minidoka 
Project that remains subject to the acreage limitation provisions of 
Federal reclamation law. Under section 213 of the Reclamation Reform 
Act of 1982 (RRA), early repayment of a district's construction costs 
is prohibited unless the district's repayment contract with Reclamation 
included a provision allowing for early repayment when the RRA was 
enacted.
    At one time, over 50 districts in the Minidoka Project were subject 
to the acreage limitation provisions and many of those districts had an 
early repayment provision in their contracts. In order to provide 
consistency for the landowners in the remaining district, we support S. 
2470's approach to allow early repayment in A&B Irrigation District. 
However, we recommend that the bill be amended in order to ensure 
consistency for all landowners within the project.
    In general, early repayment authority in contracts is limited to 
landowners. In other words, a district cannot pay out early; rather, 
each landowner can decide if his or her land should be paid out early. 
It is Reclamation policy to require landowners who want to pay early to 
pay out all of their land in the subject district and not just a 
portion of their land. This concept was included in the recently 
enacted ``Southern Oregon Bureau of Reclamation Repayment Act of 
2005,'' which provided early payout authority for two districts in 
Oregon (Public Law 109-138).
    As currently written, S. 2470 can be interpreted to provide the 
opportunity for landowners to pay out either all of their land in A&B 
Irrigation District or a portion of that land. The latter is a benefit 
that other landowners who are subject to the acreage limitation 
provisions simply do not enjoy and would inject inconsistency into the 
administration of the acreage limitation provisions. Early payout would 
accelerate the repayment of these project costs to the United States 
Treasury. Where these repayment obligations are not accompanied by 
interest, early repayment has a net positive impact on overall 
repayment to the Treasury and we are highly confident that this will be 
the case under this bill. However, we should note that a small number 
of landowners hold in excess of 960 acres and therefore pay full cost. 
Since full cost has an interest component, if these landowners opt to 
pay out early, this could result in slightly lower repayment from those 
landowners.
    We believe our concerns can be addressed with a simple revision to 
S. 2470 and we stand ready to provide revised language. This concludes 
my testimony and I would be pleased to answer any questions you may 
have.
                                s. 2502
    Madam Chairwoman and members of the Subcommittee, I am William 
Rinne, Acting Commissioner of the Bureau of Reclamation. Thank you for 
the opportunity to testify on S 2502. The Department supports S 2502.
    The North Unit Irrigation District receives water from the Bureau 
of Reclamation's Deschutes Project and the District's privately 
developed Crooked River pumping plant in Oregon. Over 900 small farm 
and ranch families in Oregon's Deschutes Basin rely upon the District 
for the delivery of irrigation water. Since the District's formation a 
century ago, these families have shifted from dryland wheat to alfalfa 
hay, grass seed, garlic seed, and carrot seed, as well as raising 
cattle, sheep, horses, and other livestock.
    In the mid-1950s, Reclamation and the District renegotiated the 
District's repayment contract in accordance with section 7, subsection 
(a), of the Reclamation Project Act of 1939. Pursuant to the Act of 
August 10, 1954, Congress approved the contract along with an 
authorization for the construction of Haystack Dam and regulating 
reservoir. The contract established the maximum irrigable acreage that 
can receive Reclamation project water at 49,818 acres.
    S. 2502 will resolve several limitations in the District's 
contract, enabling the District to more efficiently manage its water 
supplies. Because Congress approved the District's contract, changes to 
the contract which are beyond the scope of the Contracting Officer's 
authority must also be approved by Congress.
    Oregon law requires irrigation districts that participate in a 
publicly financed ``conserved water project'' to dedicate a portion of 
conserved water resulting from the project to instream flows for fish, 
wildlife or other purposes (ORS 537.455 et seq.). The District has self 
financed over $8 million in conservation activities, and would like to 
consider participation in a publicly financed program. Unfortunately, 
the underlying Project authorization and the District's contract do not 
allow it to dedicate water to instream uses. S. 2502 amends the 
District's contract so the District can comply with State law if it 
chooses to participate in a conserved water project.
    A related change to the District's contract would allow the 
District to deliver Deschutes Project water to families who are 
irrigating approximately 9,000 acres of land in the District with non-
project water diverted by the District's Crooked River pumping plant. 
All of these lands are within the District's present boundary, have 
been irrigated for decades, and have appurtenant water rights issued by 
the State, but they exceed the current contract's ceiling of 
approximately 49,818 acres. Using Deschutes Project water on these 
lands will allow the District to divert less Crooked River water and 
leave more water instream.
    S. 2502 will benefit fish and wildlife by enabling the District to 
use less water from the Crooked River, and participate in State 
conserved water projects that return a portion of the conserved water 
to the Deschutes River. The United States would also realize financial 
benefits in the form of accelerated repayment of Project construction 
costs through the annual participation of an additional 9,000 acres in 
Project repayment. The District's current contract is based on a 
variable repayment plan, which means that rather than paying fixed 
annual installments, the District's annual payments vary based on 
factors such as crop production. Thus it is difficult or impossible to 
predict when the District would pay out its contract if this bill is 
not enacted. This legislation not only increases the number of acres in 
Project repayment, but also requires the District to pay its remaining 
obligation of $6,649,371 in fixed annual installments.
    The Administration also supports the language that this bill 
inserts at the end of the bill, in section 4 to be inserted into the 
underlying act. This provision gives the Secretary the authority to 
renegotiate this contract upon mutually agreeable terms without having 
to have Congress approve of changes agreed upon between the District 
and the Secretary. This provision reflects the general rule that 
repayment contracts do not require Congressional approval.
    The legislation is specific to the District; it would not affect 
any other district in the Deschutes Project, their patrons, or any 
others in Oregon. The District will continue to comply with all 
applicable state and federal laws including the Reclamation Reform Act 
of 1982.
    On behalf of the Department, I would like to compliment the 
District on its proactive approach to addressing the water management 
issues it is facing, as well as obtaining the support of other 
interested parties in the local community. We are pleased to support 
this legislation.
    I am happy to respond to any questions.
                                s. 3404
    Madam Chairman and members of the Subcommittee, I am Bill Rinne, 
Acting Commissioner of the Bureau of Reclamation. Thank you for the 
opportunity to testify on S. 3404.
    S. 3404 reauthorizes the Mni Wiconi Rural Water System by amending 
Section 10(a) of the Mni Wiconi Project Act of 1988. Specifically, S. 
3404 extends the sunset date for the completion of project construction 
from 2008, as currently authorized, until 2012. Reclamation supports 
the need for this amendment, but would prefer that the sunset be 
extended through the end of 2013.
    Reclamation is committed to completing project construction in a 
timely manner, and should be nearing 70% completion by the end of 
fiscal year 2006. Reclamation is supportive of extending the 
authorization for the project. However, given the amount of remaining 
construction work needing to take place prior to full completion, 
Reclamation feels a more appropriate date for extending the 
authorization would be 2013. Consequently, Reclamation would ask that 
the sponsors and the committee consider extending the sunset date 
through 2013 rather than 2012 as currently proposed.
    We support the amendment to extend the sunset date for completing 
construction of the Mni Wiconi Project and look forward to working with 
the sponsors and the Committee to address issues concerning the 
appropriate length for extending the authorization.
    That concludes my testimony and I would be pleased to answer any 
questions.
                               h.r. 2383
    Madam Chairwoman, and members of the Subcommittee, my name is Bill 
Rinne, Acting Commissioner for the Bureau of Reclamation. I appreciate 
the opportunity to appear before you today to discuss the proposed name 
change for the Tracy Pumping Plant in Byron, California, to the ``C.W. 
`Bill' Jones Pumping Plant.''
    As you know, Reclamation's Mid-Pacific Region operates the Central 
Valley Project (CVP)--the Nation's largest water delivery project. The 
CVP is a system of 20 dams and reservoirs, 500 miles of major canals, 
power plants, and other facilities located mainly in the Sacramento and 
San Joaquin Valleys of California. The CVP develops or manages about 9 
million acre-feet of water and delivers about 7 million acre-feet for 
urban, industrial, agricultural, and environmental uses annually; 
produces electrical power; and provides flood protection, water for 
navigation, fish and wildlife, recreation and water quality benefits.
    A major facility of the CVP is the Tracy Pumping Plant in the 
southern portion of the Sacramento-San Joaquin River Delta. The 
function of the pumping plant is to move water into the Delta-Mendota 
Canal. Up to approximately 2.5 million acre-feet of water is delivered 
to highly productive agricultural lands in the Central Valley annually.
    The San Luis & Delta-Mendota Water Authority has had responsibility 
for the operation and maintenance of the Tracy Pumping Plant since 1993 
through various agreements with Reclamation.
    Mr. Jones served as the Chairman of the San Luis & Delta-Mendota 
Water Authority. He had a career that spanned more than 40 years in the 
water industry, and was instrumental in promoting the need for a 
reliable water supply to keep Central Valley agriculture economically 
viable for the state of California.
    While Reclamation remains neutral on the proposal to change the 
name of the Tracy Pumping Plant to the ``C.W. `Bill' Jones'' Pumping 
Plant,'' Mr. Jones' contribution to the Central Valley's agricultural 
viability through his leadership of the Water Authority and his 
numerous other contributions to the water industry in the Central 
Valley are recognized by the Department and are well known. In 
addition, Mr. Jones contributed greatly to the building of common 
understanding between Reclamation and its customers.
    That concludes my testimony and I would be happy to answer any 
questions you might have.
                               h.r. 4204
    Madam Chairwoman and members of the Subcommittee, I am Bill Rinne, 
Acting Commissioner of the Bureau of Reclamation. Thank you for the 
opportunity to appear before you today. The Department supports H.R. 
4204, a bill to transfer ownership of the American River Pump Station 
Project to Placer County Water Agency (PCWA) upon completion of 
construction.
    The American River Pump Station replaces a permanent pumping plant 
constructed by PCWA in the late 1960's on the North Fork of the 
American River. The principal function of the original pumping plant 
was to convey water supply from PCWA's Middle Fork Project to the 
Auburn Ravine Tunnel for use in Placer County, California.
    Reclamation initiated construction of Auburn Dam in 1967. 
Construction of the dam was authorized by the Act of September 2, 1965 
(P.L. 89-161, 79 Stat. 615). At the time construction of the dam was 
beginning, PCWA maintained a pumping station just upstream from the 
proposed dam site. The pumping station could not remain in place during 
construction of the Auburn Dam.
    In lieu of condemnation by the United States, PCWA entered into a 
Land Purchase Agreement with Reclamation in 1972, transferring PCWA's 
land and facilities in the American River canyon to the United States, 
but not their water rights. The Land Purchase Agreement obligated 
Reclamation to deliver 25,000 acre-feet of Middle Fork Project water 
annually to PCWA until Auburn Dam was completed, at which time PCWA 
would divert all their water from the reservoir. To fulfill this 
obligation under terms of the Land Purchase Agreement, every year since 
1972 Reclamation has installed a temporary pump station each April. The 
temporary facility remains in service until November when it is removed 
because of high winter flows that typically inundate the site.
    Construction of Auburn Dam was halted in 1975 and has yet to be 
resumed. In the interim, Placer County has become increasingly 
urbanized. Consequently, PCWA will soon require year-round access to 
its full water supply from the Middle Fork Project. This demand 
substantially exceeds the capacity of the temporary facility. In 
addition, installation and removal of the temporary pump station each 
year is becoming increasingly costly.
    Considering the circumstances, Reclamation and PCWA determined that 
a new permanent pumping plant was the best long-term solution for 
providing PCWA access to its water. PCWA further determined that it had 
needs for a higher-capacity pump than Reclamation would be obligated to 
provide. In 2003, Reclamation and PCWA entered into a cost-share 
agreement for the construction of a permanent pumping plant which 
stipulates that PCWA will pay all incremental costs of materials and 
construction necessary to enable the pumping plant to deliver water 
above the capacity negotiated to meet Reclamation's obligations to PCWA 
and that title will be transferred to PCWA upon completion of the 
permanent pumping plant, currently scheduled for 2008. The title 
transfer is contingent upon statutory authority, as provided in H.R. 
4204.
    H.R. 4204 would not impact other Central Valley Project (CVP) water 
or power contractors. The completed project will not be operationally 
or financially integrated with the CVP, nor will it provide benefits to 
other CVP water and power contractors. Georgetown Divide Public Utility 
District could potentially access water through agreements with PCWA. 
Total costs for the completed project are projected to be approximately 
$55 million, and the cost share agreement provides that the Federal 
share for construction is approximately 70 percent. Although the 
payment of fair market value is normally a requirement for transfer of 
facilities from Federal ownership, given the circumstance that 
Reclamation is responsible for the destruction of PCWA's original 
pumping plant and obligated to provide equivalent water deliveries, and 
the expense of annually installing annual pump stations, the cost share 
agreement protects the interest of taxpayers in this case. Transferring 
title will also relieve the Federal Government of the obligations and 
liabilities of operating and maintaining the facility.
    That concludes my testimony. I am pleased to answer any questions.

    Senator Murkowski. Thank you, Mr. Rinne.
    Mr. Peltier.

  STATEMENT OF JASON PELTIER, DEPUTY ASSISTANT SECRETARY FOR 
         WATER AND SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Peltier. Thank you. My name is Jason Peltier. I'm 
Deputy Assistant Secretary for Water and Science, and it's my 
pleasure to be here to testify in support of S. 1812, 
introduced by Senator Hatch.
    It's a rather simple bill. It will simply add Juab County, 
in Utah, to the list of preexisting counties which were 
eligible to participate in conjunctive water programs. It makes 
all the sense in the world for Juab County to have the access 
to this program that the other counties do. They have some 
creative ideas, they have some needs, and we're pleased to 
support the bill.
    [The prepared statement of Mr. Peltier follows:]
  Prepared Statement of Jason Peltier, Deputy Assistant Secretary for 
     Water and Science, U.S. Department of the Interior, on S. 1812
    Madam Chairwoman and members of the Subcommittee, my name is Jason 
Peltier. I am a Deputy Assistant Secretary for Water and Science in the 
Department of the Interior. I appreciate the opportunity to appear 
before you to express the Administration's support for S. 1812, which 
would amend the Reclamation Projects Authorization and Adjustment Act 
of 1992, or more specifically the Central Utah Project Completion Act. 
The proposed legislation would provide the opportunity for conjunctive 
use of surface and groundwater in Juab County, Utah.
    The Central Utah Project Completion Act provides for the completion 
of the construction of the Central Utah Project by the Central Utah 
Water Conservancy District. The Act also authorizes programs for fish, 
wildlife, and recreation mitigation and conservation; establishes an 
account in the Treasury for deposit of appropriations and other 
contributions; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Water Rights Settlement.
    Section 202(a)(2) of the Central Utah Project Completion Act 
provides authorization to develop conjunctive use projects involving 
groundwater recharge, management and conjunctive use of surface water 
and groundwater in five counties within Utah. S. 1812 would allow 
conjunctive use funds currently restricted for use in Salt Lake, Utah, 
Davis, Wasatch, and Weber counties to also be used in Juab County. To 
date, only one project in Salt Lake County has participated in the 
conjunctive use program, leaving approximately $8.5 million of 
authorized appropriations for the program. No other counties have 
requested to participate in the conjunctive use program.
    The conjunctive use program was originally limited to five counties 
that had been part of the Bureau of Reclamation's High-Plains States 
Groundwater Demonstration Program. The Central Utah Project (CUP) as it 
was originally planned would have provided Juab County with sufficient 
water supplies. However, this project has evolved over time. Under 
current plans, CUP water will be used in more populated areas of Utah. 
East Juab County is now planning to meet its water needs without CUP 
water, and this bill will provide it with an opportunity to develop 
needed water resources.
    This bill would not increase the level of authorized appropriations 
for the Central Utah Project Completion Act, but would allow Juab 
County to compete for funds in the same way that its five sister 
counties do today.
    Madam Chairwoman, this bill would allow Juab County to efficiently 
develop its water resources, and the Administration is pleased to 
support it. This concludes my testimony. I am happy to answer any 
questions.

    Senator Murkowski. Thank you very much.
    Mr. Peltier. Thank you.
    Senator Murkowski. At this time, I'd ask either Senator 
Johnson or Senator Smith if you care to comment on either of 
the--I guess any of the legislation we have which have been 
sponsored by Senator Johnson.

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. Well, if I may. Thank you, Madam Chairman.
    On June 6th, I introduced legislation that extends the 
project authorization to the Mni Wiconi Rural Water System. 
Senator John Thune joined me in introducing S. 3404. The 
legislation is necessary because the current authority to 
appropriate funds from this vital world water project expires 
after 2008. I want to thank the Bureau of Reclamation for 
working with my staff to help us understand how best to 
complete this vital project. It's my hope that the Congress can 
act on the legislation this year in order to provide the 
certainty, and continuity, and funding necessary to fulfill the 
promise of clean and reliable drinking water.
    When the Mni Wiconi Rural Water System is completed, the 
Bureau of Reclamation, along with the four local South Dakota 
projects' sponsors, will have constructed one of the largest 
and most ambitious public works projects in the American West, 
designed to deliver clean drinking water over a vast geographic 
area. Water from the Missouri River will be pumped and 
transported hundreds of miles to serve some of the most 
impoverished communities in the United States.
    Importantly, the system will serve three Indian 
reservations: The Oglala Sioux tribe, the Lower Brule Sioux 
tribe, and the Rosebud Sioux tribe. The residents of these 
tribes utilize route-of-entry drinking water networks that 
would be significantly improved with new water transmission and 
distribution systems. The system will also serve the West 
River/Lyman-Jones Rural Water System in southwestern South 
Dakota as well.
    Since the project's original authorization in 1988, the 
Congress has had to amend the project to expand the service 
territory, and increase authorized project cost. S. 3404 does 
not change the service territory or increase the cost 
authorization to the project, but simply provides for the 
necessary authority to expend funds for the project past fiscal 
year 2008.
    After 12 years of construction activities, the project is 
now 70 percent complete, but important aspects of the project 
remain unfinished. Mni Wiconi is roughly translated to mean 
``Water is life''. Certainly, in the West and on the prairies 
of South Dakota, the ability to secure clean and reliable water 
supplies is critical for public health, economic development, 
and the lives of our communities.
    S. 3404 will provide for the full completion of the 
project, and I appreciate the Committee's favorable 
consideration of the legislation. I also appreciate the 
observation that we will work with the bill relative to what 
final date that is. The bill provides for 2012, and a 
suggestion is that 2013 might be the more appropriate number, 
but we will be in conversation about that, and if there are 
adjustments, we will be open to making that happen.
    But the remaining portion of the Mni Wiconi Water Project 
that remains to be constructed is the portion that goes into 
the Pine Ridge Indian Reservation of the Oglala Sioux. There 
are other areas in which the construction will take place as 
well, but this is principally what remains to be done.
    And this is truly among the poorest of the poor in America. 
I've been to the Pine Ridge repeatedly. I've seen the multiple 
families living in the same shack, with a garbage barrel out at 
the end of the gravel road where the tribe occasionally comes 
by and fills it with water. But no electricity, no drinking 
water, and no paved roads. Sub-par housing is characteristic of 
the lives of a great many people in this part of the country. 
This is truly a Third World situation and it exists right here 
in the United States, in my home State of South Dakota. So it's 
my hope that while the annual funding, because of the limited 
allocations we've had, has forced us to stretch out this 
project more than we'd like, I hope that we can reauthorize the 
timeframe on this to allow us to finally get this water to the 
people who need it in such desperate fashion.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you, Senator Johnson.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Madam Chairwoman.
    I appreciate you holding this hearing today on several 
bills. One of the bills is S. 2502. I appreciate the 
administration's support of the bill. It's legislation that 
I've sponsored with my colleague, Senator Wyden. It will 
provide a win-win for the environment, and for farmers and 
ranchers who receive their irrigation water from the North Unit 
Irrigation District in central Oregon.
    Companion legislation introduced in the House by 
Congressman Greg Walden has also been reported out of the House 
Resources Committee. I'd like to put in the record the balance 
of my statement, and also ask that there be included the 
testimony of Richard Macy regarding this bill, S. 2502. It 
explains it in full and will help complement the record of this 
hearing.
    [The prepared statements of Senator Smith and Mr. Macy 
follow:]
 Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon, 
                               on S. 2502
    Madam Chairman, I appreciate your holding this legislative hearing 
today on several bills pending before the subcommittee. One of the 
bills, S. 2502, is legislation I have sponsored that will provide a 
win-win for the environment and for the farmers and ranchers who 
receive their irrigation water from the North Unit Irrigation District 
in central Oregon. My colleague, Senator Ron Wyden, joins me in 
cosponsoring this bill. Companion legislation, introduced in the House 
by Congressman Greg Walden, has been reported out of the House 
Resources Committee. I would like to submit, for the record, written 
testimony from Richard Macy, the chairman of the North Unit Irrigation 
District.
    This legislation represents an opportunity to benefit nearly nine 
hundred farm and ranch families, as well as the fish and wildlife 
resources of the Deschutes and Crooked Rivers. It will do so by 
removing a limitation in North Unit's federal water contract with the 
Bureau of Reclamation. This limitation prevents the District and its 
patrons from participating in a conserved water project pursuant to the 
laws of the State of Oregon.
    Removing this contract restriction will enable North Unit to 
conserve its water supplies further through the implementation of 
conserved water projects. In order to comply with state law, the 
District would return a specific percentage of the ``conserved'' water 
back to the Deschutes River permanently as instream flows for fish, 
wildlife, or other purposes. A related change would enable the District 
to use Deschutes Project water on acreage in its service area that is 
currently irrigated with Crooked River water. The savings from these 
two changes could ultimately allow the District to reduce its reliance 
on its privately developed Crooked River supplies.
    Located in central Oregon's Deschutes Basin, the farm and ranch 
families of the North Unit Irrigation District are the embodiment of 
the federal Reclamation program. Working small and medium parcels of 
land, they raise grass seed, carrot seed, and alfalfa hay, as well as 
cattle, sheep, and horses. The overriding limitation to their ability 
to compete successfully in the International marketplace is a shortage 
or water. For these families, conservation is the most efficient means 
to alleviate their shortage and succeed in the market.
    After self-financing over eight million dollars in canal lining and 
other measures to increase the efficiency of their limited water 
supplies, North Unit would like to participate in a state water 
conservation program. Unfortunately, the District's federal contract 
prevents it from doing so. This point has been confirmed to me by 
officials with the Bureau of Reclamation, an agency of the Department 
of the Interior. Therefore, North Unit's contract must be amended. 
Since Congress actually legislatively executed the District's contract 
in a 1954 statute, it is Congress, and not the Department of the 
Interior, that must remove this contract restriction.
    These targeted contract changes are specific to the North Unit 
Irrigation District's contract. For the landowners served by the 
District, these changes will enable them to use their water resources 
more efficiently, maintain their competitiveness in the market, and 
benefit the fish and wildlife resources of both the Deschutes and 
Crooked Rivers. Our efforts are supported by the Oregon Water Resources 
Department, which has jurisdiction over state water rights issues.
    I look forward to hearing from the witnesses here today. I also 
look forward to working with the Chairman to enact S. 2502 in the near 
future.
                                 ______
                                 
  Prepared Statement of Richard Macy, Chairman, North Unit Irrigation 
                    District, Madras, OR, on S. 2502
                              introduction
    Madam Chairwoman, Senator Smith, Senator Wyden, and members of the 
Subcommittee, thank you for scheduling today's hearing on S. 2502, the 
North Unit Irrigation District Act of 2006. I am pleased to submit this 
written testimony in support of this legislation, and I respectfully 
request it be included in the hearing record.
    The enactment of S. 2502 will benefit nearly 900 farm and ranch 
families in our District, as well as the fish and wildlife resources of 
the Deschutes and Crooked Rivers. The legislation will provide these 
benefits by amending North Unit's amendatory repayment contract with 
the United States. The contract prevents the District from 
participating in conserved water projects pursuant to Oregon State law 
and further prevents the District from providing Deschutes Project 
water to a limited amount of land within the present District boundary. 
Our contract, which has served North Unit and the United States 
relatively well for fifty years, today has the unintended effect of 
restricting the District's ability to conserve water and reduce its 
reliance on the Crooked River.
Background and History
    Located in Oregon's Deschutes Basin, the North Unit Irrigation 
District lies southeast of Mt. Hood. It is east of the Deschutes River 
and north of the Crooked River, and surrounds the cities of Madras, 
Culver, and Metolius. The District was first established in 1916 as the 
Jefferson Water Conservancy District, and later became the North Unit 
Irrigation District. Like other irrigation districts in Central Oregon, 
North Unit was formed to address the serious water shortages 
confronting individual farmers and ranchers around the turn of the 
century.
    North Unit receives its irrigation water from the Deschutes River 
(through storage facilities) and Crooked Rivers (through diversion 
facilities). This water is conveyed through federal facilities that 
comprise part of the Deschutes Project. The District has an amendatory 
repayment contract with the Bureau of Reclamation (Reclamation) for its 
Deschutes Project supplies. Based upon its 1913 Deschutes River water 
rights, the District is entitled to approximately 406,000 acre-feet of 
water, when such water is available. In 1955, the District obtained 
Crooked River water rights to supplement those acres irrigated under 
the District's Deschutes River water right. In 1968, the District 
developed additional water rights to irrigate certain lands, referred 
to as the Crooked River lands. The Crooked River lands are covered by 
State of Oregon Water Right Certificates (Certificate Nos. 72283 and 
72284). With these two Crooked River water rights, the District is 
entitled to a 200 cubic feet per second (cfs) right during the 
irrigation season; in the past decade, the District has annually 
diverted an average of 23,000 acre-feet from the Crooked River.
    Despite these water rights and supplemental supplies, the 
District's water shortage continues to be a problem for the 900 farmers 
and ranchers who irrigate approximately 59,000 acres. Roughly 9,000 
acres of these lands are irrigated primarily with our Crooked River 
supplies. Since the District's formation nearly a century ago, local 
farmers and ranchers have shifted from primarily dry land wheat to 
irrigated alfalfa hay, carrot seed, garlic seed, and grass seed. They 
also raise cattle, sheep, horses, and other livestock. Because of 
significant conveyance losses, due to a 26-mile long section of the 
main canal that passes through porous, volcanic soils, local farmers 
and ranchers rely on less than 2 acre-feet of water per acre. This 
amount of water is inadequate for agricultural production in today's 
competitive international markets. For North Unit, conservation is the 
most efficient means to alleviate this shortage so our farmers and 
ranchers can succeed in the market.
Congressional Authorization
    In the mid-1950s, Reclamation and North Unit renegotiated North 
Unit's repayment contract. In 1954, Congress authorized Reclamation to 
execute the contract, and more importantly, Congress actually approved 
the contract, along with an authorization for the construction of the 
Haystack Dam and regulating reservoir (Act of August 10, 1954, ch. 663, 
68 Stat. 679). For nearly 50 years, the contract served the United 
States and the District relatively well.
    Now, after self-financing over $8 million in canal lining and other 
conservation measures, the District would like to participate in a 
State of Oregon publicly cost-shared, conserved water project. 
Unfortunately, North Unit's contract with the United States prevents it 
from doing so, because it does not allow the District to dedicate a 
portion of the savings to instream use, which is a requirement of State 
law. Importantly, the underlying authorization for the federal 
Deschutes Project also prevents the District from complying with State 
law. This point was confirmed in a January 11, 2006 letter from 
Reclamation's Pacific Northwest Regional Director, J. William McDonald, 
to Senator Gordon Smith, Senator Ron Wyden, and Congressman Greg 
Walden.
    Accordingly, North Unit's contract must be amended. Because 
Congress actually authorized the District's contract, however, Congress 
must amend our contract to remove these limitations.
Specific Contract Amendments
    S. 2502 proposes several amendments to North Unit's contract. 
First, it authorizes the District to comply with Oregon law with regard 
to conserved water projects authorized by State statute. Under Oregon's 
conserved water statute, an irrigation district that participates in a 
conserved water project is required to dedicate a minimum of 25 percent 
of its ``saved'' water to instream purposes, such as fish and wildlife. 
North Unit must comply with these requirements, whether it implements 
its own conserved water project or leases conserved water from another 
district to serve its existing lands.
    Reclamation has stated that North Unit's contract, and the 
underlying authorization for the Deschutes Project, do not authorize 
the District to dedicate water to instream flow purposes--even for the 
purpose of complying with State law governing conserved water projects. 
A specific amendment to the District's contract to authorize the 
District to dedicate water to instream flow purposes as required by a 
State conserved water project will remove this limitation.
    We understand it may appear easier to authorize Reclamation to 
renegotiate North Unit's contract. Unfortunately, this will not solve 
our problem or that of the United States because it will not address 
the restriction in the underlying authorization for the Deschutes 
Project. North Unit and the United States need legislation directly 
authorizing the District to place water instream in conjunction with a 
conserved water project consistent with the requirements of Oregon law. 
This will enable the District to achieve all of the benefits we 
anticipate additional conservation will provide our local economy and 
environment.
    The second amendment will authorize the District to deliver 
Deschutes Project water to the Crooked River lands. The District's 
present contract allows it to deliver Deschutes Project water to a 
maximum of 50,000 acres within the District's boundary. Approximately 
9,000 acres of land, known as the Crooked River lands, are irrigated 
with Crooked River water supplies through the District's own diversion 
facilities, pursuant to existing and valid water rights issued by the 
State of Oregon. The legislation will authorize the District to deliver 
Deschutes Project water to the Crooked River lands, for a total of 
59,000 acres, instead of 50,000 acres. All of the Crooked River lands 
are within the District's existing boundary, have been irrigated for 
decades, and have appurtenant water rights issued by the State of 
Oregon.
    These changes to North Unit's contract will not increase the 
District's allocation of Deschutes Project water. For example, if North 
Unit were to participate in a State of Oregon conserved water project--
following the passage of this legislation--by replacing open canal with 
pipe, and thereby eliminating 10 cfs of ditch loss, North Unit would be 
required by State law to leave a minimum of 2.5 cfs of this 10 cfs 
savings instream. The remaining 7.5 cfs would then be available for 
irrigation. This 7.5 cfs is not a new or additional allocation. It is 
water the District is entitled and for which the District is paying, 
but it is losing due to open, unlined canals.
    An additional benefit of water conservation in this case is energy 
conservation. If the District were to deliver this 7.5 cfs of conserved 
Deschutes River water to the Crooked River lands (through energy 
conserving gravity flow distribution), the District would avoid the 
cost of the electricity normally used to pump this same amount of water 
up from the Crooked River. In essence, the District seeks to replace 
natural flow from the Crooked River that comes with a significant 
pumping cost with conserved Deschutes Project water that is available 
without the same pumping costs. An additional benefit is that North 
Unit's reduced energy consumption would occur during peak usage 
periods.
    The changes to North Unit's contract only authorize the District to 
comply with State instream flow requirements if it chooses to 
participate in an Oregon State conserved water project, and to supply 
Deschutes Project water to all of its lands including the Crooked River 
lands. North Unit will continue to comply with all applicable state and 
federal laws, including the Reclamation Reform Act, National 
Environmental Policy Act, and Endangered Species Act in its pursuit of 
any given conserved water project.
Economic and Environmental Benefits
    Amending the District's contract will result in real benefits to 
our patrons and the environment. District participation in a State 
conserved water project will improve efficiency for local farmers and 
ranchers, and lead to a dedication of a portion of the District's 
Deschutes Project water for Deschutes River fisheries. With the passage 
of this legislation and implementation of a conserved water project, 
the District plans to diminish its use of Crooked River water--leaving 
more instream for the Crooked River's fisheries resources and 
recreation purposes.
    These amendments will also benefit the federal government. Under 
this legislation, the United States has no financial obligations. More 
importantly the legislation will accelerate the District's repayments 
to the United States. All of the District's patrons eligible to receive 
Deschutes Project water will be charged equally for the capital 
repayment portion of North Unit's obligations for the Deschutes 
Project. The legislation will also increase the District's annual per 
acre charge, accelerating its capital repayment obligation of 
approximately $6.6 million.
    The District is pleased that S. 2502 is supported by the State of 
Oregon's Water Resources Department, Jefferson County Board of 
Commissioners, Oregon Farm Bureau, Deschutes River Conservancy, Oregon 
Water Resources Congress, Arnold Irrigation District, Central Oregon 
Irrigation District, Ochoco Irrigation District, Swalley Irrigation 
District, Three Sisters Irrigation District, and Tumalo Irrigation 
District.

    Senator Murkowski. Thank you. And both your testimony and 
that of Mr. Macy will be included as part of the record. Thank 
you for participating this afternoon.
    A couple questions for you this afternoon, gentlemen.
    I appreciate your efforts in explaining in pretty 
abbreviated detail a number of these measures, Commissioner 
Rinne. Let's start out with S. 1965. This is the Yakima-Tieton 
Irrigation District conveyance. In terms of annual cost that 
could be saved by Reclamation if we're to enact this 
legislation, what are we looking at? What kind of a savings are 
anticipated?
    Mr. Rinne. Madam Chairwoman, I don't actually have the 
actual----
    Senator Murkowski. You can give round figures, certainly.
    Mr. Rinne. I can get back to you.
    Senator Murkowski. OK. That's fine.
    And then in the same vein, in terms of any administrative 
obligations that might be reduced if this bill was enacted, do 
you have that information?
    Mr. Rinne. Of what would be reduced?
    Senator Murkowski. Right.
    Mr. Rinne. Yes. There are several things, Madam Chairwoman, 
that I would suggest, right now, the district would have to--
whenever they make any changes, there's always approval through 
Reclamation, so it kind of works in both ways. It works to 
reduce the Federal burden, but it certainly works in the case 
of the district. So if they want to make changes to building or 
come in and do things like that, they're going to have to check 
in with Reclamation. So it just takes out a layer of that kind 
of that administrative duplication which is just not necessary. 
And I think the fact that they are paid out--fully paid out at 
this time, and all of the construction costs are repaid, and 
that was figured in to the bill, it's just a real good deal to 
move ahead that way.
    Senator Murkowski. Then we'll look for information on the 
cost savings.
    With regards to S. 2129--this is the Minidoka Project--you 
mentioned the title transfer; are there any issues associated 
with that title transfer that this committee should be aware 
of? Anything that would cause the transfer to be held up in any 
way? Anything that we should be aware of?
    Mr. Rinne. Not that I'm aware of, Madam Chairwoman. I mean, 
there's the normal stuff to work through. I was just trying to 
think here. You know there will be, after the title's 
transferred, where there's withdrawn land and Muriel Land 
Management becomes involved, but those are not--they're not 
obstacles and what you just process, it has to go through.
    Senator Murkowski. What about any other governmental 
entities that may be involved with the transfer; are they in 
agreement that this legislation is something that needs to move 
forward?
    Mr. Rinne. We know of no opposition that would impact that.
    Senator Murkowski. OK. Let's move to S. 2470. This is the 
A&B Irrigation. You mentioned that the Bureau supports this 
with some minor modifications. I guess the first question would 
be, why this irrigation--why the A&B Irrigation District is the 
only remaining district in the project that's subject to this 
acreage limitation?
    Mr. Rinne. Why we're just dealing with this district?
    Senator Murkowski. Right.
    Mr. Rinne. All the other districts in the Minidoka Project 
have either--have been relieved of RIA responsibilities. In 
other words, they've been fully paid out, they've met the 
criteria, and they've had in their contracts--they had the 
ability within their contract to do early payout. And under the 
Reclamation format, that would have not been in this particular 
A&B District's contract. So what has to happen, if you don't 
have that, they can't do early payout. So this would just make 
an equitable situation. It's the one remaining unit, it's the 
Minidoka Project. So on that particular project, the other 
one's out, so it allows landowners within that district, should 
they choose to, to go ahead and do an early payout.
    Senator Murkowski. And with this early payout, landowners 
can opt for--does this bring more money to the Treasury?
    Mr. Rinne. If you do an early payout, it does. It can 
benefit the Treasury, because what would happen is, over time, 
according to the contracts, you have interest on top of it. So 
it can benefit the Treasury in that regard.
    Senator Murkowski. Good. Let's see. I don't really have a 
question about Senator Smith's legislation, S. 2502, I wanted 
to ask about the status of the--I've been mispronouncing it--
it's Mni Wiconi.
    Mr. Peltier. Wiconi.
    Senator Murkowski. Mni Wiconi. Senator Johnson, I think you 
indicated that the project is about 70 percent complete?
    Senator Johnson. That is correct.
    Senator Murkowski. That's kind of where we are with it. And 
then, if we are to move forward with the extension of the 
sunset date, as you have proposed, did I understand correctly 
that that doesn't increase the authorized appropriations that 
would be needed for the project?
    Senator Johnson. At this time, the feeling is it is 
adequate at this time to complete the project. So it's our----
    Senator Murkowski. Even if we have to bump that date out a 
year or two?
    Senator Johnson. Yes, particularly if you moved it. And 
again, as the Senator said, I guess we can talk and decide 
whether it's 2004 over 2013, but if it were to move out a year, 
we still feel we would be OK on that. We are not required 
authorization to increase the ceiling.
    Senator Murkowski. OK. And then the last one, a question 
for you. This is H.R. 4204, the American River Pump Station 
Project. What's the cost to Reclamation for installing the 
temporary pump station there?
    Senator Johnson. The total--well, the temporary station--I 
may have to go back--but I would tell you every year they're 
doing it, we might be around--I think the last time I looked, 
maybe it was a--roughly like--as I recall, a couple million 
dollars a year. This is on a temporary that we would have as 
our operating costs.
    Senator Murkowski. And then the permanent pumps then would 
be--that project would be complete in 2008?
    Senator Johnson. 2008, that's right. It's substantially 
underway, and the construction's been going on. I just spoke 
with our Regional Director today, and he affirmed again that 
it's on schedule.
    Senator Murkowski. Good. Good. And then, Mr. Peltier, as it 
relates to S. 1812, the Juab County Conjunctive Use Projects, 
why do you believe that only one of the five communities 
participated in this conjunctive use project or program?
    Mr. Peltier. The Central Utah Project was passed in 1992, 
and since then, only Salt Lake County has participated in 
developing a conjunctive use program. My guess is that the 
other counties primarily focus on surface development of 
surface water and surface water systems and that eventually 
their needs will turn to ground water and conjunctive use 
projects. So it's more--I think it's because they're viewed 
more as something in the future.
    Senator Murkowski. OK. But you believe that Juab County 
will need the assistance that's going to be provided by the 
bill?
    Mr. Peltier. Yes. They are interested in pursuing work in 
part because in the early days of the Central Utah Project, it 
was envisioned that water from the project would flow toward 
them. Over the decades, the view has shifted, so the project is 
focusing more on this for industrial water supplies, and we'll 
be north to the more urbanized areas.
    Senator Murkowski. Do you know what they plan to do with 
the assistance then?
    Mr. Peltier. I'm sorry.
    Senator Murkowski. Do you know what they plan to do with 
the assistance?
    Mr. Peltier. No, I don't know the specific project, but 
development of a conjunctive use project would allow them to 
operate and manage their existing surface water supplies in 
conjunction with the more developed and more managed ground 
water system.
    Senator Murkowski. Thank you. I appreciate it.
    Senator Johnson, if you had questions--and Senator Craig, 
would like to make a comment on your legislation?
    Senator Johnson. Thank you. Well, I do have some questions, 
if Senator Craig wants to make a----
    Senator Craig. No, go ahead.
    Senator Johnson. OK. All right. Well, for Acting 
Commissioner Rinne, relative to S. 1965, your testimony notes 
Reclamation and the Yakima-Tieton Irrigation District entered 
into a title transfer agreement prior to legislation being 
introduced. The question that--and how to ask it, I'm sure 
Senator Cantwell would have--do you know how long it took to 
negotiate the agreement with YTID, and what types of issues 
were addressed and resolved, and has this been the model you'd 
suggest for all title transfers?
    Mr. Rinne. Senator, I think from that standpoint, we feel 
that on the second part--we do think it's a good model or at 
least a good example of the way we should work through these 
kinds of title transfer agreements. And I think the key reason 
I say that is, it has a very clarity in the sense of both back 
and forth with the district and Reclamation. So we truly had 
kind of agreements done up front before we then moved forward 
with the legislation. And I think, in the big picture, it 
probably saved some time and possibly saved some costs in that 
too.
    Senator Johnson. Well, this legislation states the 
expectation the title transfer will occur within 1 year of 
enactment of the bill; is that a realistic timeframe in your 
view?
    Mr. Rinne. My understanding is that it is. And I know that 
sometimes in other transfer bills--title transfer bills 
generally may be difficult because of prerequisites and things 
you have to go through. I think that the thought here is that 
the front work that's been done on this, and in the memorandum 
agreement that's between the district and Reclamation, that 
that'll help shorten that. Some of the times, it stretches the 
time out, and to meet the compliance--meeting the compliance in 
this is not a major issue, I think. In fact, I think there 
might be an environmental assessment completed on it. So that's 
the type of thing that--sometime you stretch them out.
    Senator Johnson. The transfer in 1965 appears to be 
relatively straightforward, and I guess the question would be, 
has Reclamation transferred title to any facilities which 
served multiple entities and different purposes, and are such 
transfers currently being negotiated?
    Mr. Rinne. From memory, I would tell you that I think we 
have probably about 70 title transfers that would have 
occurred, and we have had some that do have--we try to go into 
ones that make sense and you get through. But many of these 
have had a lot of issues with them and a lot of interest and we 
continue to work. We continue to think the title transfers 
where they make sense to the parties or--I'm not saying it 
happens in all cases.
    Senator Johnson. I have a couple questions relative to S. 
2129 and S. 2470, which I'm sure my colleague from Idaho would 
have interest in.
    On S. 2129, the bill involves not only the proposed sale of 
land and improvements to entities in Idaho, but also directs 
the Bureau of Land Management and the National Park Service to 
assume responsibility for sizable parcels of land. Were those 
agencies parties to the title transfer agreement, and do they 
support the addition of land that will add to the agencies' 
management responsibilities?
    Mr. Rinne. It's my understanding on that, as far as the 
title transfer agreement, they would not be part of the one 
between us and the district. However, the land then that would 
free us up, enable us to make that available, it will go 
through the Bureau of Land Management, so we can actually do a 
title transfer to those States. I guess it would be Fish and 
Game and National Park Service intervention. I think what city 
bidding--I think there's three of them that I am aware of that 
are involved.
    My understanding is that, for example, the city of Gooding, 
I think they have a site for an airport that they're interested 
in. The State Fish and Game, they're already managing this area 
for wildlife purposes, so it's consistent with that. And the 
Park Service, I think, is interested in taking the one site, 
it's like a 10-acre tract. So the answer then would be, yes, I 
think that in most cases, they are.
    Senator Johnson. Relative to S. 2129, has there been an 
estimate to the fair market value of the properties to be 
conveyed under the bill?
    Mr. Rinne. If there has, I'm not aware of the value. I can 
check back with you, but I do know that fair market value will 
be applied, and there's an agreement that it must be--the lands 
must be conveyed at fair market value. So that part, I confirm 
to you. Whether the estimate had been completed, my sense is 
that it maybe has not. And I'm not saying there hasn't been 
some work done. We'd be happy to get back to you with that.
    Senator Johnson. Relative to S. 2470, which my colleague 
has sponsored, let me ask you, the bill establishes that upon 
repayment of all construction costs allocated to each parcel of 
land within the irrigation district, that those parcels will 
not be subject to Reclamation law. Is that result unique to 
this bill or is that the typical effect of satisfying the 
repayment obligation in the construction cost repayment 
contract?
    Mr. Rinne. That is typical of the Reclamation Reform Act of 
1982. It's when they are fully paid--when the construction 
costs are fully paid out, then they're not subject anymore to 
section 213 of the Reclamation Reform Act.
    Senator Johnson. Let me ask you, relative to my own 
legislation and Senator Thune's, S. 3404, 2006 appropriations, 
as well as the 2007 budget, provide about $23 million for 
continuing construction activity in the Mni Wiconi Project. 
Does that $23 million represent the maximum amount of annual 
work that Reclamation is capable of in constructing the 
remaining features of the project? And if not, what is the 
maximum extent of Reclamation's capabilities on an annual 
basis?
    Mr. Rinne. As I think you're aware, Senator, on that point 
you made, it is completed by contractors, on the West River/
Lyman-Jones, and others. Their capability--their current 
capability, I'm not sure whether they could do more or not then 
about the $23 million. I can tell you from the history, and I'm 
sure you're aware of this, the million dollar benefit, that's 
fairly consistent with about where they've been over the last 
few years. That tells me it's like everything else. When 
there's a lot of pipe being put in the ground, if they can get 
more contracts in place, possibly there could be more 
capability.
    Senator Johnson. I guess that's where we are because that's 
how large the appropriations have been. There was a time, a 
number of years ago, when Mni Wiconi was receiving well over 
$30 million in construction each and every year.
    Let me ask you, on the 2007 budget, it indicates that the 
balance to complete the project in 2008 and beyond is $106 
million; is that $106 million still accurate? And if so, it 
would appear that Reclamation could complete the project by 
2012, assuming that appropriations for construction remains at 
about the $23 million level; is there a particular reason why 
your testimony suggests 2013?
    Mr. Rinne. I think the numbers are still good and accurate. 
I think our thinking behind the extension is based on the work 
that's remaining to be done, and it would probably be, in some 
part, a judgment--somewhat of a judgment call. It would just--
it's going to take that much time to get through.
    I think what we're concerned about, Senator, is if it 
didn't get done, and officially had to be authorized--excuse 
me--extended to 2012, and we were not able to get there, we're 
trying to make sure we have just a little cushion, in case, so 
we wouldn't have to come back and request another extension. So 
I think it's close, and that's our best feeling, just being up 
front, that we think we're going to be there.
    Senator Johnson. One last question relative to H.R. 4204: 
As I understand it, this bill would free Reclamation from 
having to install, operate, and take down a temporary pumping 
facility each year. Do you have an estimate of how much that 
operation costs on an annual basis?
    Mr. Rinne. Well, earlier, when I--Senator, when I was 
trying to respond to the chairwoman, I said I wasn't exactly 
sure. But I remember I was looking at some of the budget 
documents, and I may be off on this just a little bit, so I'd 
like to confirm this. But I'd say it is in the area of $2 
million, but it might be a little more. The reason I say that 
is I looked at the operating part of it, and it may be that 
it's a little more than that. But it's not--it's not 
inexpensive.
    Senator Johnson. Madam Chairman, thank you.
    Senator Murkowski. Thank you.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Madam Chairman, thank you very much for 
convening the hearing of this Subcommittee.
    I'll speak briefly only to S. 2470 and S. 2129. I 
appreciate the Committee reviewing both of these bills at one 
time. And Senator Johnson has asked a question of S. 2470. In 
the 1982 Reclamation Act, when we increased the acreage 
limitation to 960 acres in this particular project in south-
central Idaho, the Minidoka Project, for some reason the A&B 
Irrigation District didn't fall into it at that time. So what 
is obviously sought is equity for this irrigation district.
    And what oftentimes happens out there, beyond the original 
owners and the original intent, once the construction costs are 
paid off--you know, it's happening in your State, and it's 
happening in mine--that's consolidation of acreages, and farms 
get larger instead of smaller. And these acreage limitations, 
prior to you and I coming, got battled out pretty robustly in 
the 1960's and into the 1970's, because the limitation was 
substantially less, and there was argument that some large 
operators were operating on, if you will, subsidized Federal 
water. Those differences have been worked out.
    This is simply to bring equity to that irrigation district, 
as it is elsewhere across the Minidoka Project. It is not 
precedence setting, and the commissioner responded to that, as 
I understand it, appropriately to what the law is currently. 
We're just asking that these members of this particular 
district have the same advantage. And we also understand there 
may be the dotting of I's and crossing of T's. We'll work 
closely with the bill to make sure all of that happens 
appropriately.
    The other one is an interesting anomaly in my State, a 
World War II anomaly, and one that we look back on not with 
fond memory, and that was the internment of both Japanese and 
Japanese-Americans. During World War II, some of those 
locations were detention centers. One of these that housed some 
13,500 Japanese and Japanese-Americans is in that same area, 
and it was called the Minidoka Internment Camp. The bill will 
convey a small acreage to, I understand, the National Park 
Service so that this can be recognized and sustained as part of 
our national history.
    That's what the intent of this is. It makes economic sense 
to be a law, and I think it's important to the local 
communities involved. So S. 2129 is a conveyance of--do we know 
the total acreage involved?
    Senator Johnson. I think it's around 10 or less acres.
    Senator Craig. I think it's 10 or less acres, something 
around that nature. And again, we'll work cooperatively 
obviously with the Bureau to make sure that the appropriate 
language--that if there's some difference in the language, it 
is worked out, so that we can move these pieces of legislation.
    Madam Chairman, thank you for doing this.
    Senator Murkowski. Thank you.
    Senator Craig. 10.18 acres. Thank you.
    Senator Murkowski. Is that right on?
    Senator Craig. Yes.
    Senator Murkowski. OK, any further questions of our 
witnesses on the first group? With that, we thank you very much 
and appreciate your testimony.
    We'll call forward our second group of witnesses. We have 
Mr. Rick Dieker, the secretary-manager of the Yakima-Tieton 
Irrigation District in Yakima, WA, and Mr. Einar Maisch, the 
director of strategic affairs, Placer County Water Agency, out 
of Auburn, CA.
    Welcome, gentlemen, to the subcommittee. We appreciate you 
traveling all the way from the West Coast to join us on this 
soggy East Coast. You could use a little bit of the water we've 
got here back on the coast.
    Gentlemen, you've heard the statements from our two 
previous witnesses on the questions. We'd be delighted to 
entertain your statements.
    Mr. Dieker, if you want to proceed.

 STATEMENT OF RICHARD DIEKER, SECRETARY-MANAGER, YAKIMA-TIETON 
                      IRRIGATION DISTRICT

    [Inaudible. Prepared statement follows:]
Prepared Statement of Richard Dieker, Secretary-Manager, Yakima-Tieton 
                    Irrigation District, on S. 1965
    Good afternoon, my name is Richard Dieker. I am the Secretary-
Manager of the Yakima-Tieton Irrigation District. I am here today on 
behalf of the Board of Directors and water users of the Yakima-Tieton 
Irrigation District to provide background and information in support of 
S. 1965, legislation to authorize the Secretary of the Interior to 
convey certain lands and buildings of the Yakima Project in Washington 
to the Yakima-Tieton Irrigation District. We strongly support this 
legislation and thank the committee for considering it today.
                   yakima-tieton irrigation district
    The District is located in Central Washington and is part of the 
Yakima Project. The District has a long history of involvement with the 
United States dating back to 1906 when construction began on project 
facilities. The delivery of irrigation water began in 1910. The 
District assumed operation and maintenance of delivery facilities in 
1947 and were the first reclamation project to repay our construction 
indebtedness to the United States in that year. In 1988 after 
completion of a rehabilitation and betterment project, the District 
again repaid its obligations to the United States. The District 
delivers water to approximately 28,000 acres.
 s. 1965, the yakima-tieton irrigation district conveyance act of 2005
    The act would authorize the Secretary of Interior to convey title 
of federally owned lands and buildings to the Yakima-Tieton Irrigation 
District. The title would be conveyed to approximately nine acres of 
land, two houses and associated structures, the headquarters office 
building and a warehouse. The houses and property are used to 
accommodate district employees who maintain and inspect delivery 
facilities. The headquarters office building is the base of operation 
for the District. On November 15, 2005 the House of Representatives 
approved H.R. 1564 containing the same language as S. 1965. This is a 
great example of the bipartisan support for this bill.
                         title transfer process
    It has been the desire of the District to obtain title to buildings 
and lands outlined in the legislation and owned by the United States 
for many years. In 1995 when the Bureau of Reclamation policy framework 
for title transfer began the District began to investigate the process 
to complete title transfer. The Bureau and the District worked 
cooperatively and successfully to address all of the elements necessary 
to bring this legislation forward. We then worked with Senator Cantwell 
to introduce the legislation.
                    benefits of this title transfer
    The title transfer will give the District more local control of 
buildings which were constructed for our use. There will be one less 
administrative layer caused by the United States ownership when changes 
or improvements of the property and buildings are needed. The Bureau of 
Reclamation will no longer need to complete periodic facility reviews 
of these transferred buildings and properties. They can direct 
personnel to more important activities.
                               conclusion
    In conclusion, I would like to thank several people who have made 
this transfer possible. Within the Bureau of Reclamation I would like 
to thank former Commissioner Keys for his support as Commissioner and 
also when he was Regional Director in the Pacific Northwest Region. 
Next is Mike Reif of the Pacific Northwest Regional Office and Keith 
Angwin from the Upper Columbia Area Office who worked hard to make the 
process successful. Finally, I would like to thank and acknowledge 
Senator Cantwell and her staff who worked closely with us to move this 
legislation forward.
    In summary, S. 1965 is a good bill, a good title transfer and shows 
a cooperative process of benefit to both Reclamation and the District. 
I urge the Committee to move this legislation forward so that the title 
transfer process for the District can be completed.
    This concludes my testimony; I would be pleased to answer any 
questions.

    Senator Murkowski. Thank you, Mr. Dieker.
    Mr. Maisch.

 STATEMENT OF EINAR L. MAISCH, DIRECTOR OF STRATEGIC AFFAIRS, 
                   PLACER COUNTY WATER AGENCY

    [Inaudible. Prepared statement follows:]
 Prepared Statement of Einar L. Maisch, Director of Strategic Affairs, 
                Placer County Water Agency, on H.R. 4204
                              introduction
    Chairman Domenici and members of the committee, thank you for the 
opportunity to testify today in strong support of H.R. 4204, a Bill to 
Direct the Secretary of the Interior to transfer ownership of the 
American River Pump Station Project to the Placer County Water Agency 
upon completion of the project's construction.
    My name is Einar Maisch and I am the Director of Strategic Affairs 
for the Placer County Water Agency, located in Auburn, California. 
Placer County ranks as one of the fastest growing counties in 
California and currently the Agency provides water delivery and power 
generation to more than 150,000 customers covering an area from the 
Sacramento Valley to Lake Tahoe.
    It is a privilege to be here before you today to support this 
transfer legislation and highlight the positive partnership we have 
enjoyed with the U.S. Bureau of Reclamation on this project. The Agency 
and the USBR Regional Office in northern California have worked very 
closely over the years on this project and we both enthusiastically 
support the facilities transfer.
    While many parties brought us here, I would like to single out my 
Board of Directors, Chairman Alex Ferreira, and Directors Pauline 
Roccucci, Mike Lee, Lowell Jarvis and Otis Wollan for the leadership 
and vision they have consistently shown on this issue; the 
indefatigable spirit and drive of our General Manager David Breninger; 
and the hard work of my staff. I also wish to commend Kirk Rodgers, Mid 
Pacific Regional Director, Mike Finnegan Central California Area 
Manager, and their respective teams within the USBR for their 
cooperation and strong support. They are real pros and have been a 
pleasure to work with on this project.
    And on behalf of our Agency and customers, I would like to share 
our gratitude with our Congressman, John Doolittle, for introducing 
this legislation and to Senator Diane Feinstein for her continued 
support for this project and regional water solutions in northern 
California. The Agency and our customers are fortunate indeed to have 
such representation here in Washington, DC.
    There are three primary points I wish to make in urging your 
support for this transfer:

          1. All parties are in agreement. Reclamation is not 
        interested in being in the O&M business for a facility that 
        only serves one agency and we feel we can better operate the 
        facility to deliver a reliable water supply to our customers. 
        The project meets Reclamation's framework for the transfer of 
        title to facilities that can be more effectively and 
        efficiently managed by non-federal entities;
          2. Congressional consistency. This transfer is consistent 
        with actions the Congress has taken historically in such 
        situations--with the authorization of transfers such as Sugar 
        Pine Dam (Foresthill PUD) and Sly Park Reservoir (El Dorado 
        Irrigation District).
          3. Completes a Four Decade Long Cycle. The Placer County 
        Water Agency (Agency) constructed a pump station on the 
        American River at Auburn in 1966 to access its Middle Fork 
        Project water rights. When Congress authorized and appropriated 
        funds for the construction of the Auburn Dam, Reclamation 
        acquired the Agency's pump station property and removed the 
        pump station. In return Reclamation agreed to maintain 
        responsibility to provide water to the Agency until such time 
        as the Auburn Dam was completed--pursuant to the 1972 Land 
        Purchase Contract.

    A temporary pump station was installed in 1977 by Reclamation to 
meet the Agency water supply needs and then annually since 1990 as 
Agency water supply demands increased. This temporary fix proved to be 
very costly: it is incapable of meeting the Agency's needs; and, as all 
parties have agreed, it does not satisfy Reclamation's responsibilities 
under the 1972 Land Purchase Contract.
    Working in collaboration, Reclamation and the Agency designed a 
permanent pump station to meet the Agency's needs and executed Contract 
No. 02-LC-20-7790 that details the facilities to be constructed, cost 
sharing and ownership. The project has successfully completed all 
environmental review requirements and is currently under construction. 
Under this contract Reclamation is obligated to pay the costs of 
replacing the original pump station with a 100 cfs capacity facility as 
compensation for the land it acquired in 1972 and the pump station the 
federal government first removed, and the Agency is obligated to pay 
the cost of any over-sizing above 100 cfs.
    Passage of H.R. 4204 will enable Reclamation to transfer the 
American River Pump Station to the Placer County Water Agency, upon 
completion and under the terms of Contract No. 02-LC-20-7790.
                               background
Placer County Water Agency
    Placer County Water Agency (Agency) was created by an act of the 
California State Legislature in 1957. The boundaries of the Agency are 
coterminous with the County of Placer, an area of approximately 1500 
square miles that extends roughly along the I-80 corridor from 
Roseville to Lake Tahoe. The Agency is governed by an independently 
elected five member Board of Directors. The Agency is functionally 
divided into three business units; those being Agency Wide; Power 
System and Water System.
The American River Pump Station
    In 1972, under threat of condemnation, the Agency entered into a 
Land Purchase Contract with the Bureau of Reclamation (Reclamation) to 
convey its property and pump station on the American River at Auburn to 
Reclamation to make way for the construction of the Auburn Dam. This 
contract provides that Reclamation will provide water to the Agency 
through a temporary pump station, when needed, at a rate of 50 cfs and 
25,000 acre-feet per year until the Auburn Dam is completed. 
Construction work on the Auburn Dam was halted in 1975 and never 
restarted.
    The first time that the Agency needed to access its MFP water 
rights was during the drought of 1977. Previously, and for several 
years after, the Agency was able to acquire sufficient water to meet 
its customers needs from its PG&E contracts for Yuba/Bear River water. 
By 1990 growth within the Agency's service area was using nearly all of 
the available PG&E water and the Agency began to request that 
Reclamation install pumps annually to allow the Agency to access its 
MFP water rights.
    Reclamation used the original pumps installed by the Agency in 1966 
for their temporary pump station; by constructing a channel through a 
sand bar to an inlet screen a few hundred feet upstream of the Auburn 
Coffer Dam and Diversion Tunnel. The pumps are only a few feet above 
the summer water level and are subject to flooding in the winter, so 
they must be removed each fall and cannot be installed again until 
April or May.
    At first the pumps were only needed during the annual PG&E canal 
maintenance period which begins in mid October. But with continued 
urban growth the Agency currently operates the pumps at maximum 
capacity during the peak summer period. Unfortunately, the maximum 
capacity of the temporary pump station is less than 50 cfs (due to 
piping restrictions) and the maximum annual usable diversion capacity 
is only about 13,000 acre-feet per year (due to the limited time of the 
year that the pumps are operable) which are less than required under 
the Land Purchase Contract.
    Early in the 1990's the Agency and Reclamation staff agreed that 
the current temporary pumping arrangement was unsatisfactory for both 
parties and began work on the design and environmental elements of a 
new permanent pump station.
Excerpts from Reclamation's Record of Decision for the project
          ``The Project is the subject of the Final Environmental 
        Impact Statement/Environmental Impact Report (FEIS/EIR), 
        American River Pump Station Project, dated July 2002, developed 
        in compliance with the National Environmental Policy Act 
        (NEPA), and the California Environmental Quality Act (CEQA).
          The FEIS/EIR was prepared jointly by Reclamation 
        (Reclamation) and the Placer County Water Agency (PCWA). The 
        purpose of the Project is threefold: (1) to provide facilities 
        to allow PCWA to convey its Middle Fork Project (MFP) water 
        entitlement to the Auburn Ravine Tunnel to meet demands within 
        its service area; (2) to eliminate the safety issue associated 
        with the Auburn Dam bypass tunnel; and (3) to allow for all 
        pre-construction beneficial uses of water in what is now the 
        dewatered river channel, including recreation, navigation, and 
        other instream beneficial uses.
          Prior to the onset of construction, Reclamation and PCWA 
        would approve and execute Contract No. 02-LC-20-7790, entitled 
        ``Contract Between the United States and Placer County Water 
        Agency Related to American River Pumping Plant and Associated 
        Facilities'' (Contract).
          Reclamation would construct the Project facilities, and 
        pursuant to the Contract, transfer the ownership of the pump 
        station and appurtenances to PCWA for operation and 
        maintenance.
          The decision is to implement the Proposed Project, identified 
        and discussed in the FEIS/EIR as the Mid-Channel Diversion 
        Alternative.''
Contract No. 02-LC-20-7790
    Contract No. 02-LC-20-7790 (2003 contract) was executed by 
Reclamation on September 11, 2003 after adoption of the Record of 
Decision for the project. The 2003 contract provides in relevant parts:

        ``Project Facilities to be Constructed

          3. (a) Project facilities to be constructed pursuant to this 
        Contract shall enable the AGENCY to divert water from the 
        American River near Auburn, California into its Auburn Ravine 
        Tunnel on a year-round basis. Project facilities shall . . . 
        include, but not be limited to: A screened intake structure of 
        sufficient size to allow diversion of not less than 225 cubic 
        feet per second (``cfs'') of water from the American River; A 
        year-round pipeline of sufficient capacity to convey to the 
        Pump Station such water as is diverted from the intake; A 
        pumping station of sufficient capacity to allow future increase 
        of diversions to an instantaneous rate of 225 cfs; Pumps of 
        sufficient capacity to allow instantaneous diversion of 100 cfs 
        of water from the American River, with adequate backup 
        electrical power and pumping facilities as may be dictated by 
        prudent design guidelines; A discharge pipe capable of 
        delivering up to 100 cfs from the Pump Station into the Auburn 
        Ravine Tunnel; All-weather roads sufficient to enable the 
        AGENCY to conduct all necessary operation, maintenance, repair 
        and reconstruction of the Project and the Auburn Ravine Tunnel. 
        Such roads, adjacent slopes and associated surface water runoff 
        control facilities shall be designed and constructed so that 
        the roads remain unobstructed.

        Project Costs

          4. (a) Except where costs are made the responsibility of the 
        AGENCY under the express terms of this contract, the UNITED 
        STATES shall be responsible for the reasonable and necessary 
        costs associated with the Project, including: The design of the 
        Project facilities; The preparation of all necessary 
        environmental documentation and implementation and monitoring 
        of any necessary mitigation measures; All required 
        construction, management, construction inspection and 
        construction engineering services; All on site grading, road 
        construction, stabilization work, runoff control, restoration 
        and re-vegetation work; Required river gradient control 
        structures; All safety facilities; and The cost of the 
        diversion structure, conveyance pipeline to the Pump Station, 
        the Pumps, the Pump Station and the discharge pipeline to the 
        Auburn Ravine Tunnel, all sized for 100 cfs capacity. The 
        AGENCY shall pay the incremental costs of materials and 
        construction necessary to enable the facilities to deliver 
        water at rates in excess of 100 cfs. Such payments by the 
        AGENCY shall be made in advance of construction of any such 
        facilities by the UNITED STATES.

        Operations and Maintenance

          7. (a) Upon approval by the AGENCY of the Notice of 
        Completion of Construction issued by the UNITED STATES, the 
        AGENCY, without expense to the UNITED STATES, shall care for, 
        operate, and maintain the Project facilities.

        Grant of Real Property Interest

          8. Within 12 months of the AGENCY's approval of the UNITED 
        STATES' Notice of Completion of Construction of the Project 
        facilities, or as soon thereafter as practicable, the UNITED 
        STATES shall grant to AGENCY title to the Project facilities, 
        and a recordable indefeasible easement, easements, or other 
        interest in lands, in a form acceptable to the County of 
        Placer, sufficient to provide AGENCY with permanent, year-round 
        access to all Project facilities and to the Auburn Ravine 
        Tunnel, for maintenance, operation, enlargement, repair, 
        reconstruction, and, if necessary for continued reliable 
        operation, for relocation of Project facilities, and for 
        electrical power lines necessary to operate and maintain the 
        Project. Said real property interests shall include sufficient 
        rights to allow the AGENCY access to the river for future 
        construction and operation of facilities to divert water 
        pursuant to its appropriative rights under its Middle Fork 
        Project.''

    Following the completion of the final EIR/EIS, issuance of a 
Biological Opinion of no jeopardy, adoption of the ROD, execution of 
the 2003 contract and commencement of construction, Reclamation 
determined that Congressional authorization would be required in order 
for it to properly affect the transfer of the pump station and 
easements to the Agency.

 
------------------------------------------------------------------------
                                                         $ in  millions
------------------------------------------------------------------------
Construction Costs
Reclamation share (per the 2003 contract)............              37.42
PCWA oversizing......................................              12.80
                                                      ------------------
    Total estimated construction cost................              49.60
                                                      ------------------
PCWA contributed funds...............................              17.00
PCWA oversizing......................................              12.80
                                                      ------------------
    Total PCWA cost for construction.................              29.80
                                                      ------------------
        Total Reclamation cost for construction......              20.42
                                                      ==================
------------------------------------------------------------------------

                                 ______
                                 
                             Bureau of Reclamation,
                               Mid-Pacific Regional Office,
                                Sacramento, CA, September 11, 2006.
Mr. David A. Breninger,
Placer County Water Agency, Auburn, CA.

Subject: Transmittal of Executed Contract No. 02-LC-20-7790, Contract 
Between the United States and Placer County Water Agency (Agency) 
Related to American River Pumping Plant and Associated Facilities

    Dear Mr. Breninger: Enclosed is an executed original of the 
contract between the Agency and Bureau of Reclamation, Contract Number 
02-LC-20-7790, for the construction and operation of the American River 
Pumping Plant. We appreciate all the time and effort your Agency has 
put into working out this contract. We also appreciate your Agency's 
willingness to agree in Article 9(a) of the contract to assume all 
responsibility--for any damage caused by any previous disturbance to 
the American River Canyon related to the construction of Auburn Dam.
    We also wish to remind the Agency that this contract does not 
convey to Reclamation any responsibility for additional work outside 
that specifically related to construction of the pumping facility, or 
for making any payment for such work. Specifically, Reclamation will 
not be responsible for the construction, maintenance, operation, or for 
any costs associated with the proposed equestrian/pedestrian bridge or 
alternative trail system across the American River at the Auburn Dam 
site. Additionally, Reclamation will not be responsible for any costs 
associated with any item assigned to the Agency in the Mitigation 
Monitoring and Reporting Program/Environmental Compliance Plan as 
approved in the Agency's Resolution No. 02-25.
    If you have any questions, please contact Rick Johnson at 916-989-
7181 (TDD 989-7285). Sincerely,
            Sincerely,
                                           Kirk C. Rodgers,
                                                 Regional Director.
[Enclosure.]
                                 ______
                                 
                                         Contract No. 02-LC-20-7790
                       DEPARTMENT OF THE INTERIOR
                         BUREAU OF RECLAMATION
                   central valley project, california
Contract Between the United States and Placer County Water Agency 
        Related to American River Pumping Plant and Associated 
        Facilities
    THIS CONTRACT, made this 11th day of September, 2003, in pursuance 
generally of the Act of June 17, 1902 (32 Stat. 388), and acts 
amendatory or supplementary thereto, including, but not limited to, the 
acts of August 26, 1937 (50 Stat. 844), as amended and supplemented, 
August 4, 1939 (53 Stat. 1187), as amended and supplemented, all 
collectively hereinafter referred to as the Federal Reclamation law, 
between THE UNITED STATES OF AMERICA, hereinafter referred to as the 
UNITED STATES, and Placer County Water Agency, hereinafter referred to 
as the AGENCY, a political subdivision of the State of California, duly 
organized, existing and acting pursuant to the laws thereof, including, 
but not limited to, the Placer County Water Agency Act; with its 
principal place of business in Auburn, California;
    WITNESSETH, That:
                          explanatory recitals
    WHEREAS, the UNITED STATES has constructed and is operating the 
Central Valley Project, California for diversion, storage, carriage, 
distribution and beneficial use, for flood control, irrigation, 
municipal, domestic, industrial, fish and wildlife mitigation, 
protection and restoration, generation and distribution of electric 
energy, salinity control, navigation and other beneficial uses, of 
waters of the Sacramento River, the American River, the Trinity River, 
and the San Joaquin River and their tributaries; and
    WHEREAS, in 1963, the AGENCY obtained the right to divert certain 
flows of the American River pursuant to water right permits for the 
AGENCY's Middle Fork Project, which permits were issued by the 
California State Water Rights Board, which has been succeeded by the 
State Water Resources Control Board; and
    WHEREAS, pursuant to those rights, the AGENCY secured land and 
constructed diversion, year-round pumping and conveyance facilities in 
the American River canyon near Auburn, California for the purposes of 
diverting water under its permits and conveying it to and through the 
Auburn Ravine Tunnel, also known as the Auburn Tunnel or Ophir Tunnel, 
for use within the AGENCY's Service Area; and
    WHEREAS, in 1965, the UNITED STATES authorized a water project 
known as the Auburn-Folsom South Unit (``Auburn Dam''), and, in 
furtherance of said project, desired to acquire the land upon which the 
AGENCY's pumps and conveyance facilities were located; and
    WHEREAS, the UNITED STATES has modified the American River canyon 
to construct the Auburn-Folsom South Unit (``Auburn Dam''), and some of 
those modifications have created unstable land features; and
    WHEREAS, under threat of condemnation by the UNITED STATES, the 
AGENCY entered into a Land Purchase Contract (14-06-859-308) with the 
UNITED STATES, transferring the AGENCY's land and facilities in the 
American River canyon to the UNITED STATES, and as partial 
consideration for the taking of this property, the UNITED STATES agreed 
to provide a water supply to the AGENCY until the Auburn Dam was 
completed; and
    WHEREAS, at the time the Land Purchase Contract was negotiated and 
executed, the Auburn Dam project, as then designed, was expected to 
enable the AGENCY to obtain water from the American River by gravity 
flow through the Auburn Ravine Tunnel, without the necessity of 
pumping; and
    WHEREAS, pursuant to the Land Purchase Contract (14-06-859-308A), 
UNITED STATES has, for many years, annually installed a seasonal 
pumping station and conveyance facilities to enable the AGENCY to pump 
water from the American River into the Auburn Ravine Tunnel during 
summer months, and
    WHEREAS, the AGENCY has determined that it now requires year-round 
pumping to meet its water supply obligations to its customers; and
    WHEREAS, the parties have recognized that yearly installation of 
seasonal pumps and facilities no longer satisfies the UNITED STATES' 
obligation under the Land Purchase Contract; and
    WHEREAS, the parties have recognized that yearly installation of 
seasonal pumps and facilities is inefficient and costly to the UNITED 
STATES; and
    WHEREAS, the parties now propose to construct a year-round pumping 
facility which fully satisfies the UNITED STATES' obligations under the 
Land Purchase Agreement, to replace the AGENCY's original pumping 
facility; and
    WHEREAS, the parties now desire to enter into a new contract, which 
will supersede the Land Purchase Agreement regarding issues of cost-
sharing, operations and maintenance of the new pump station to deliver 
50 cfs which is the obligation of The UNITED STATES, and up to a total 
of 100 cfs, the remainder of which would be the responsibility of the 
AGENCY.
    NOW, THEREFORE, in consideration of the mutual and dependent 
covenants herein contained, it is hereby mutually agreed by the parties 
hereto as follows:
Definitions
    1. When used herein, unless otherwise distinctly expressed or 
manifestly incompatible with the intent hereof, the term:

    (a) ``Auburn Ravine Tunnel'' shall mean that existing 12-foot 
diameter tunnel through the ridge separating Auburn, California from 
the American River and used to convey water from the American River to 
the tunnel's outlet in Auburn Ravine. The Auburn Ravine Tunnel is also 
referred to from time to time as the Ophir Tunnel or Auburn Tunnel.
    (b) ``Calendar Year'' shall mean the period January 1 through 
December 31, both dates inclusive;
    (c) ``Land Purchase Contract'' shall mean the agreement entered 
into between the UNITED STATES and the AGENCY, identified as Contract 
No. 14-06-859-308 and dated July 25, 1972, as amended, modified and 
supplemented by the Supplemental Agreement to Land Purchase Contract, 
identified as Contract No. 14-06-859-308a and dated May 25, 1979;
    (d) ``Project'' shall mean the installation of a permanent 
diversion intake, pumping station, electric facilities, electric 
transmission lines, water conveyance facilities, access roads, and all 
ancillary facilities necessary to allow the AGENCY to divert the water 
of the American River to the Auburn Ravine Tunnel, on a year-round 
basis, until the Auburn Dam is completed;
    (e) ``Service Area'' shall mean the area to which the AGENCY is 
entitled to deliver its water rights water from the American River for 
beneficial use;
    (f) ``Secretary'' or ``Contracting Officer'' shall mean the 
Secretary of the 98 UNITED STATES Department of the Interior or her 
duly authorized representative;
    (g) ``Year'' shall mean the period from and including March 1 of 
each too Calendar Year through the last day of February of the 
following Calendar Year.
Organization of Contract
    2. Upon execution of this Contract by both parties, and until the 
AGENCY approves a Notice of Completion of Construction of the Project 
facilities, Articles 1 and 2 and Sections A and D shall apply. Upon 
approval by the Agency of a Notice of Completion of Construction issued 
by the UNITED STATES and until the AGENCY accepts title to the Project 
facilities and the related real property interests, Section A shall no 
longer be applicable; instead, Articles 1 and 2 and Sections B and D 
shall apply. Upon transfer of title to the Project facilities and the 
related real property interests to the AGENCY and thereafter, Section B 
shall no longer apply: instead, Articles 1 and 2 and Sections C and D 
shall apply for the remaining life of this contract
             section a. construction of project facilities
    Upon execution of this contract by both parties and until such time 
as the AGENCY has approved a Notice of Completion of Construction of 
the Project facilities, the following provisions shall apply:
Project Facilities to be Constructed
    3. (a) Project facilities to be constructed pursuant to this 
Contract shall enable the AGENCY to divert water from the American 
River near Auburn, California into its Auburn Ravine Tunnel on a year-
round basis. Project facilities shall be defined by the drawings and 
technical specifications for the construction of the Placer County 
Water Agency American River Pump Station (``Pump Station''), once they 
are approved by the parties, and shall include, but not be limited to:

          (1) A screened intake structure of sufficient size to allow 
        diversion of not less than 225 cubic feet per second (``cfs'') 
        of water from the American River;
          (2) A year-round pipeline of sufficient capacity to convey to 
        the Pump Station such water as is diverted from the intake;
          (3) A pumping station of sufficient capacity to allow future 
        increase of diversions to an instantaneous rate of 225 cfs;
          (4) Pumps of sufficient capacity to allow instantaneous 
        diversion of 100 cfs of water from the American River, with 
        adequate backup electrical power and pumping facilities as may 
        be dictated by prudent design guidelines.
          (5) A discharge pipe capable of delivering up to 100 cfs from 
        the Pump Station into the Auburn Ravine Tunnel;
          (6) All-weather roads sufficient to enable the AGENCY to 
        conduct all necessary operation, maintenance, repair and 
        reconstruction of the Project and the Auburn Ravine Tunnel. 
        Such roads, adjacent slopes and associated surface water runoff 
        control facilities shall be designed and constructed so that 
        the roads remain unobstructed.

    (b) All Project facilities shall be designed to meet both parties' 
specifications, at a minimum.
    (c) (1) The UNITED STATES shall be responsible for construction of 
all Project facilities and their proposed locations.
          (2) The AGENCY shall review and approve the proposed 
        locations of all Project facilities and shall approve the 
        configuration and designs of any Project facilities; and any 
        submissions, change orders and the Notice of Completion of 
        Construction issued by the United States for the Project 
        facilities.
Project Costs
    4. (a) Except where costs are made the responsibility of the AGENCY 
under the express terms of this contract, the UNITED STATES shall be 
responsible for the reasonable and necessary costs associated with the 
Project, including:

          (1) The design of the Project facilities;
          (2) The preparation of all necessary environmental 
        documentation and implementation and monitoring of any 
        necessary mitigation measures;
          (3) All required construction, management, construction 
        inspection and construction engineering services;
          (4) All on site grading, road construction, stabilization 
        work, runoff control, restoration and revegetation work;
          (5) Required river gradient control structures;
          (6) All safety facilities; and
          (7) The cost of the diversion structure, conveyance pipeline 
        to the Pump Station, the Pumps, the Pump Station and the 
        discharge pipeline to the Auburn Ravine Tunnel, all sized for 
        100 cfs capacity. The AGENCY shall pay the incremental costs of 
        materials and construction necessary to enable the facilities 
        to deliver water at rates in excess of 100 cfs. Such payments 
        by the AGENCY shall be made in advance of construction of any 
        such facilities by the UNITED STATES.
          (8) The cost of parallel facilities as detailed in Article 5, 
        herein.
UNITED STATES' Obligation to Continue Water Deliveries
    5. Reclamation shall sequence construction of Project facilities 
and/or construct parallel temporary facilities as required to continue 
American River water deliveries during the period from June 15 through 
September 15 and during scheduled PG&E maintenance outage periods.
Notice of Completion
    6. Upon substantial completion of construction of all Project 
facilities, the UNITED STATES shall issue a Notice of Completion of 
Construction. Upon the AGENCY's approval of said Notice, which approval 
shall not be unreasonably withheld, Section A of this contract shall no 
longer apply.
    End of Section A.
      section b. operations and maintenance of project facilities
    Upon approval by the AGENCY of a Notice of Completion of 
Construction of Project facilities issued by the UNITED STATES, and 
until the transfer of Project facilities and related property interests 
to the AGENCY, the provisions in Section A, ``Construction of Project 
Facilities,'' shall no longer be applicable. Instead, provisions of 
Articles 1 and 2 and Sections B and D shall apply:
Operations and Maintenance
    7. (a) Upon approval by the AGENCY of the Notice of Completion of 
Construction issued by the UNITED STATES, the AGENCY, without expense 
to the UNITED STATES, shall care for, operate, and maintain the Project 
facilities in full compliance with the terms of this contract and 
regulations and instructions furnished by the Contracting Officer, and 
in such manner that said Project facilities will remain in good and 
efficient conditions.
    (b) The AGENCY shall promptly make any and all repairs to the 
Project facilities being operated by the AGENCY which are necessary for 
proper care, operation, and maintenance. In case of neglect or failure 
of the AGENCY to make such repairs within 60 days following written 
notification, the Contracting Officer may cause the repairs to be made, 
and the cost thereof shall be paid by the AGENCY as prescribed by the 
Contracting Officer.
    (c) No substantial change shall be made by the AGENCY in any of the 
Project facilities without first obtaining the written consent of the 
Contracting Officer.
    (d)(1) The AGENCY agrees to indemnify the UNITED STATES for, and 
hold the UNITED STATES and all of its representatives harmless from, 
all damages resulting from suits, actions, or claims. of any character 
brought on account of any injury to any person or property arising out 
of any act, omission, neglect, or misconduct in the manner or method of 
performing any construction, care, operation, maintenance, supervision, 
examination, inspection, or other duties of the AGENCY required under 
this Article 5 regardless of who performs those duties.
    (2) Within thirty (30) days of receipt by either party of any claim 
for liability arising from actions within the scope of this contract, 
the party receiving the claim shall notify the other party of such 
claim and provide a copy of the claim to the other party, if it is in 
written form. Nothing in this article shall be construed to limit the 
right of either party to assert such affirmative defenses and file such 
cross complaints as may be appropriate in relation to any claim 
affecting the liability of such party.
    (e) In the event the AGENCY is found to be operating the Project 
facilities in violation of this contract, then upon the election of the 
Contracting Officer, the UNITED STATES may take over from the AGENCY 
the care, operation, and maintenance of the transferred facilities by 
giving written notice to the AGENCY of such election and of the 
effective date thereof. Thereafter, during the period of operation by 
the UNITED STATES, the AGENCY shall pay to the UNITED STATES annually, 
in advance, the cost of operation and maintenance of such facilities as 
prescribed in notices from the Contracting Officer to the AGENCY. Such 
facilities may be retransferred to the AGENCY in the manner originally 
transferred.
Grant of Real Property Interest
    8. Within 12 months of the AGENCY's approval of the UNITED STATES' 
Notice of Completion of Construction of the Project facilities, or as 
soon thereafter as practicable, the UNITED STATES shall grant to AGENCY 
title to the Project facilities, and a recordable indefeasible 
easement, easements, or other interest in lands, in a form acceptable 
to the County of Placer, sufficient to provide AGENCY with permanent, 
year-round access to all Project facilities and to the Auburn Ravine 
Tunnel, for maintenance, operation, enlargement, repair, 
reconstruction, and, if necessary for continued reliable operation, for 
relocation of Project facilities, and for electrical power lines 
necessary to operate and maintain the Project. Said real property 
interests shall include sufficient rights to allow the AGENCY access to 
the river for future construction and operation of facilities to divert 
water pursuant to its appropriative rights under its Middle Fork 
Project, and also to allow diversion and conveyance of a total of 25 
cfs. of American River flows to Georgetown Divide Public Utility 
District, pursuant to PL 101-514, from the Project intake, diversion, 
conveyance and pumping facilities if and when such conveyance is 
necessary.
    End of Section B.
               section c. transfer of project facilities
    Upon acceptance by the AGENCY of Title to the Project facilities, 
the provisions in Section A. ``Construction of Project Facilities'' and 
Section B. ``Operations and Maintenance of Project Facilities,'' shall 
no longer be applicable. Instead, the provisions of Articles 1 and 2 
and Sections C and D will be effective throughout the remaining life of 
this Contract.
Obligations of the Parties Following Transfer of Project Facilities
    9. (a) Upon acceptance of title to Project facilities and easements 
by the AGENCY, the AGENCY shall have sole responsibility for operation, 
maintenance, repair and reconstruction of such Project facilities, 
including any damage caused by any previous disturbance to the American 
River canyon related to construction of Auburn Dam. The UNITED STATES 
shall be relieved of its obligation to provide pumping of water to the 
AGENCY as set forth in the Land Purchase Contract.
    (b) The UNITED STATES shall cooperate and assist the AGENCY in the 
AGENCY's efforts to fully access, divert and utilize its water 
entitlements under its water rights.
    (c) The UNITED STATES shall retain, beyond the date on which AGENCY 
accepts title to Project facilities, all responsibility for ensuring 
public safety associated with public access to the lands it acquired or 
which were withdrawn for the Auburn Dam project and/or use of the water 
within such lands.
Future Projects
    10. (a) In the event that the UNITED STATES makes or permits 
changes to the course or channel of the American River or to the 
American River canyon slopes, features or improvements other than as 
provided for in Article 9 above, which change or impair the AGENCY's 
ability to divert or pump water from the American River, UNITED STATES 
shall assist AGENCY in AGENCY's efforts to modify, construct or adjust, 
as necessary and to AGENCY's satisfaction, the Project facilities 
constructed pursuant to this Agreement so that the AGENCY shall 
continue to have access to American River water in the same amount, and 
at the same rate, as it had prior to such changes. Such assistance 
shall include any necessary modification to AGENCY's real property 
rights granted pursuant to Article 8 herein above, expeditious design 
review of proposed facilities, and assistance in obtaining prompt 
environmental review and permits as may be needed to avoid or minimize 
disruption in AGENCY's water supply.
    (b) In the event that, after completion of the Project, the UNITED 
STATES transfers title or possession to its lands within the American 
River canyon to a third party it shall either require that the 
transferee assume the obligations of the UNITED STATES to the AGENCY 
under this Agreement, or the UNITED STATES shall retain such 
obligations.
    (c) Notwithstanding the provisions of Article 9 (a), in the event 
that the UNITED STATES constructs a dam and reservoir in the American 
River canyon that inundates or otherwise impairs the operation of the 
Project facilities, the UNITED STATES shall have the obligation, 
without cost to the AGENCY, to relocate, replace or modify the Project 
facilities to assure their continued enjoyment and use by the AGENCY. 
If a dam is constructed, the AGENCY may salvage any structures or 
equipment from Project Facilities without payment to the UNITED STATES. 
The UNITED STATES shall cooperate and assist the AGENCY in AGENCY's 
efforts to fully access, divert and utilize its water entitlements 
under its water rights,
                     section d. general provisions
Hazardous Material
    11. (a) The AGENCY shall comply with all applicable Federal, State, 
and local laws and regulations, and Reclamation policies and 
instructions, existing or hereafter enacted or promulgated, concerning 
any hazardous material that will be used, produced, transported, 
stored, or disposed of on or in lands, waters, or facilities owned by 
the UNITED STATES or administered by Reclamation.
    (b) ``Hazardous material'' means any substance, pollutant or 
contaminant listed as hazardous under the Comprehensive Environmental 
Response, Compensation, and Liability Act of 1980, as amended, 43 
U.S.C.  1901, et seq., and the regulations promulgated pursuant to 
that Act.
    (c) To the extent provided by law, the AGENCY may not allow 
contamination of lands, waters or facilities owned by the UNITED STATES 
or administered by Reclamation by hazardous materials, thermal 
pollution, refuse, garbage, sewage effluent, industrial waste, 
petroleum products, mine tailings, mineral salts, pesticides (including 
but not limited to, the misuse of pesticides), pesticide containers, or 
any other pollutants.
    (d) The AGENCY shall report to Reclamation, within 24 hours of 
becoming aware of its occurrence, any event which may or does result in 
pollution or contamination adversely affecting lands, water or 
facilities owned by the UNITED STATES or administered by Reclamation.
    (e) Any intentional violation of any of the provisions of this 
Article shall constitute grounds for initiation of the procedure for 
immediate termination of this contract and shall make the AGENCY liable 
for the cost of full and complete remediation and/or restoration of any 
Federal resources or facilities that are adversely affected as a result 
of the violation.
    (f) The AGENCY agrees to include the provision contained in 
paragraphs (a) through (e) of this Article in any subcontract or third 
party contract it may enter into pursuant to this contract.
    (g) The UNITED STATES agrees to provide information necessary for 
the AGENCY, using reasonable diligence, to comply with this Article.
Notices
    12. Any notice, demand, or request authorized or required by this 
contract shall be deemed to have been given, on behalf of the AGENCY, 
when mailed, postage prepaid, or delivered to the Area Manager, Central 
California Area Office, Bureau of Reclamation, 7794 Folsom Dam Road, 
Folsom, California 95630-1799, and on behalf of the UNITED STATES, when 
mailed, postage prepaid, or delivered to the Board of Directors of the 
Placer County Water Agency, P.O. Box 6570, Auburn, California 95604. 
The designation of the addressee or the address may be changed by 
notice given in the same manner as provided in this Article for other 
notices.
Contingent on Appropriation or Allotment of Funds
    13. The expenditure or advance of any money or the performance of 
any obligation of the UNITED STATES under this contract shall be 
contingent upon appropriation or allotment of funds. Absence of 
appropriation or allotment of funds shall not relieve the AGENCY from 
any obligations under this contract. No liability shall accrue to the 
UNITED STATES in case funds are not appropriated or allotted.
Officials not to Benefit
    14. No Member of Congress or official of the AGENCY shall benefit 
from this contract other than as a water user or landowner in the same 
manner as other water users or landowners.
Assignment Limited--Successors and Assigns Obligated
    15. The provisions of this contract shall apply to and bind the 
successors and assigns of the parties hereto, but no assignment or 
transfer of this contract or any right or interest therein shall be 
valid until approved in writing by the Contracting Officer.
Books Records, and Reports
    16. The AGENCY shall establish and maintain accounts and other 
books and records pertaining to administration of the terms and 
conditions of this contract, including the AGENCY's financial 
transactions and other matters that the Contracting Officer may 
require. Reports thereon shall be furnished to the Contracting Officer 
in such form and on such date or dates as the Contracting Officer may 
require. Subject to applicable Federal laws and regulations, each party 
to this contract shall have the right during office hours to examine 
and make copies of the other party's books and records relating to 
matters covered by this contract.
Clean Air and Water
    17. (a) The AGENCY agrees as follows:

          (1) To comply with all the requirements of Section 114 of the 
        Clean Air Act, as amended (42 U.S.C. 1857, et seq., as amended 
        by Public Law 91-604) and Section 308 of the Federal Water 
        Pollution Control Act (33 U.S.C. 1251 et seq., as amended by 
        Public Law 92-500), respectively, relating to inspection, 
        monitoring, entry, reports, and information, as well as other 
        requirements specified in Section 114 and Section 308 of the 
        Air Act and the Water Act, respectively, and all regulations 
        and guidelines issued thereunder before the execution of this 
        contract.
          (2) That no portion of the work required by this contract 
        will be performed in a facility listed on the Environmental 
        Protection Agency List of Violating Facilities on the date when 
        this contract was executed unless and until the EPA eliminates 
        the name of such facility or facilities from such listing.
          (3) To use its best efforts to comply with clean air 
        standards and clean water standards at the facility where the 
        contract work is being performed.
          (4) To insert the substance of the provisions of this article 
        into any nonexempt subcontract, including this paragraph 
        (a)(4).

    (b) The terms used in this article have the following meanings:
          (1) The term ``Air Act'' means the Clean Air Act, as amended 
        (42 U.S.C. 1857 et seq., as amended by Public Law 91-604).
          (2) The term ``Water Act'' means Federal Water Pollution 
        Control Act, as amended (33 U.S.C. 1251 et seq., as amended by 
        Public Law 92-500).
          (3) The term ``clean air standards'' means any enforceable 
        rules, regulations, guidelines, standards, limitations, orders, 
        controls, prohibitions, or other requirements which are 
        contained in, issued under, or otherwise adopted pursuant to 
        the Air Act or Executive Order 11738, an applicable 
        implementation plan as described in Section 110(d) of the Clean 
        Air Act (42 U.S.C. 1857c-5(d)), an approved implementation 
        procedure or plan under Section 111(c) or Section 111(d), 
        respectively, of the Air Act (42 U.S.C. 1857c-6(c) or (d)), or 
        an approved implementation procedure under Section 112(d) of 
        the Air Act (42 U.S.C. 1857c-(d)).
          (4) The term ``clean water standards'' means any enforceable 
        limitation, control, condition, prohibition, standard, or other 
        requirement which is promulgated pursuant to the Water Act or 
        contained in a permit issued to a discharger by the 
        Environmental Protection Agency or by a State under an approved 
        program, as authorized by Section 402 of the Water Act (33 
        U.S.C. 1342), or by local government to ensure compliance with 
        pretreatment regulations as required by Section 307 of the 
        Water Act (33 U.S.C. 1317).
          (5) The term ``comply'' means compliance with clean air or 
        water standards. Comply shall also mean compliance with a 
        schedule or plan ordered or approved by a court of competent 
        jurisdiction, the Environmental Protection Agency or an air or 
        water pollution control agency in accordance with the 
        requirements of the Air Act or Water Act and regulations issued 
        pursuant thereto.
          (6) The term ``facility'' means any building, plant, 
        installation, structure, mine, vessel or other floating craft, 
        location, or site of operations, owned, leased, or supervised 
        by a contractor or subcontractor, to be utilized in the 
        performance of a contract or subcontract. Where a location or 
        site of operations contains or includes more than one building, 
        plant, installation, or structure, the entire location or site 
        shall be deemed to be a facility except where the Director, 
        Office of Federal Activities, Environmental Protection Agency, 
        determines that independent facilities are collocated in one 
        geographical area.
Equal Employment Opportunity
    18. During the performance of this contract, the AGENCY agrees as 
follows:

          (a) The AGENCY will not discriminate against any employee or 
        applicant for employment because of race, color, religion, sex, 
        disability, or national origin. The AGENCY will take 
        affirmative action to ensure that applicants are employed, and 
        that employees are treated during employment, without regard to 
        their race, color, religion, sex, disability, or national 
        origin. Such action shall include, but not be limited to, the 
        following: Employment, upgrading, demotion, or transfer; 
        recruitment or recruitment advertising; layoff or termination; 
        rates of pay or other forms of compensation; and selection for 
        training, including apprenticeship. The AGENCY agrees to post 
        in conspicuous places, available to employees and applicants 
        for employment, notices to be provided by the Contracting 
        Officer setting forth the provisions of this nondiscrimination 
        clause.
          (b) The AGENCY will, in all solicitations or advertisements 
        for employees placed by or on behalf of the AGENCY, state that 
        all qualified applicants will receive consideration for 
        employment without discrimination because of race, color, 
        religion, sex, disability, or national origin.
          (c) The AGENCY will send to each labor union or 
        representative of workers with which it has a collective 
        bargaining agreement or other contract or understanding, a 
        notice to be provided by the Contracting Officer, advising the 
        said labor union or worker's representative of the AGENCY's 
        commitments under Section 202 of Executive Order 11246 of 
        September 24, 1965, and shall post copies of the notice in 
        conspicuous places available to employees and applicants for 
        employment.
          (d) The AGENCY will comply with all provisions of Executive 
        Order No. 11246 of September 24, 1965, as amended, and of the 
        rules, regulations, and relevant orders of the Secretary of 
        Labor.
          (e) The AGENCY will furnish all information and reports 
        required by said amended Executive Order and by the rules, 
        regulations, and orders of the Secretary of Labor, or pursuant 
        thereto, and will permit access to its books, records, and 
        accounts by the Contracting Officer and the Secretary of Labor 
        for purposes of investigation to ascertain compliance with such 
        rules, regulations, and orders.
          (f) In the event of the AGENCY's noncompliance with the 
        nondiscrimination clauses of this contract or with any of such 
        rules, regulations, or orders, this contract may be canceled, 
        terminated, or suspended, in whole or in part, and the AGENCY 
        may be declared ineligible for further Government contracts in 
        accordance with procedures authorized in said amended Executive 
        Order, and such other sanctions may be imposed and remedies 
        invoked as provided in said Executive Order, or by rule, 
        regulation, or order of the Secretary of Labor, or as otherwise 
        provided by law.
          (g) The AGENCY will include the provisions of paragraphs (a) 
        through (g) in every subcontract or purchase order unless 
        exempted by the rules, regulations, or orders of the Secretary 
        of Labor issued pursuant to Section 204 of said amended 
        Executive Order, so that such provisions will be binding upon 
        each subcontractor or vendor. The AGENCY will take such action 
        with respect to any subcontract or purchase order as may be 
        directed by the Secretary of Labor as a means of enforcing such 
        provisions, including sanctions for noncompliance: Provided, 
        however, That in the event the AGENCY becomes involved in, or 
        is threatened with, litigation with a subcontractor or vendor 
        as a result of such direction, the AGENCY may request the 
        UNITED STATES to enter into such litigation to protect the 
        interests of the UNITED STATES.
Compliance with Civil Rights Laws and Regulations
    19. (a) The AGENCY shall comply with Title VI of the Civil Rights 
Act of 1964 (42 U.S.C. 2000d), Section 504 of the Rehabilitation Act of 
1973 (P.L. 93-112, as amended), the Age Discrimination Act of 1975 (42 
U.S.C. 6101, et seq.), Title II of the Americans with Disabilities Act 
of 1990 if the entity is a State or local government entity [Title III 
if the entity is a non-government entity], and any other applicable 
civil rights laws, as well as with their respective implementing 
regulations and guidelines imposed by the U.S. Department of the 
Interior and/or Bureau of Reclamation.
    (b) These statutes require that no person in the UNITED STATES 
shall, on the grounds of race, color, national origin, disability, or 
age, be excluded from participation in, be denied the benefits of, or 
be otherwise subjected to discrimination under any program or activity 
receiving financial assistance from the Bureau of Reclamation. By 
executing this contract, the AGENCY agrees to immediately take any 
measures necessary to implement this obligation, including permitting 
officials of the UNITED STATES to inspect premises, programs, and 
documents.
    (c) The AGENCY makes this agreement in consideration of and for the 
purpose of obtaining any and all Federal grants, loans, contracts, 
property discounts, or other Federal financial assistance extended 
after the date hereof to the AGENCY by the Bureau of Reclamation, 
including installment payments after such date on account of 
arrangements for Federal financial assistance which were approved 
before such date. The AGENCY recognizes and agrees that such Federal 
assistance will be extended in reliance on the representations and 
agreements made in this article and that the UNITED STATES reserves the 
right to seek judicial enforcement thereof.
    (d) Complaints of discrimination against the AGENCY shall be 
investigated by the Contracting Officer' s Office of Civil Rights.
Certification of Nonsegregated Facilities
    20. The AGENCY hereby certifies that it does not maintain or 
provide for its employees any segregated facilities at any of its 
establishments, and that it does not permit its employees to perform 
their services at any location under its control, where segregated 
facilities are maintained. It certifies further that it will not 
maintain or provide for its employees any segregated facilities at any 
of its establishments, and that it will not permit its employees to 
perform their services at any location under its control, where 
segregated facilities are maintained. The AGENCY agrees that a breach 
of this certification is a violation of the Equal Employment 
Opportunity clause in this contract. As used in this certification, the 
term ``segregated facilities'' means any waiting rooms, work areas, 
rest rooms and wash rooms, restaurants and other eating areas, time 
clocks, locker rooms and other storage or dressing areas, parking lots, 
drinking fountains, recreation or entertainment areas, transportation, 
and housing facilities provided for employees which are segregated by 
explicit directive or are in fact segregated on the basis of race, 
creed, color, or national origin, because of habit, local custom, 
disability, or otherwise. The AGENCY further agrees that (except where 
it has obtained identical certifications from proposed subcontractors 
for specific time periods) it will obtain identical certifications from 
proposed subcontractors prior to the award of subcontracts exceeding 
$10,000 which are not exempt from the provisions of the Equal 
Employment Opportunity clause; that it will retain such certifications 
in its files; and that it will forward the following notice to such 
proposed subcontractors (except where the proposed subcontractors have 
submitted identical certifications for specific time periods):
        notice to prospective subcontractors of requirement for 
               certifications of nonsegregated facilities
    A Certification of Nonsegregated Facilities must be submitted prior 
to the award of a subcontract exceeding $10,000 which is not exempt 
from the provisions of the Equal Employment Opportunity clause. The 
certification may be submitted either for each subcontract or for all 
subcontracts during a period (i.e., quarterly, semiannually, or 
annually). Note: The penalty for making false statements in offers is 
prescribed in U.S.C. 1001.
    IN WITNESS WHEREOF, the parties hereto have executed this contract 
as of the day and year first above written.
                                 ______
                                 
  RESOLUTION NO. 02-25 OF THE BOARD OF DIRECTORS OF THE PLACER COUNTY 
WATER AGENCY MAKING FINDINGS CONCERNING THE AMERICAN RIVER PUMP STATION 
  PROJECT, ADOPTING THE MITIGATION MONITORING PROGRAM, AND APPROVING 
  CONTRACT 02-LC-20-7790 WITH THE UNITED STATES BUREAU OF RECLAMATION
    WHEREAS, the Final Environmental Impact Statement/ Final 
Environmental Impact Report (``FEIS/FEIR'') for the American River Pump 
Station Project has been presented to, reviewed and considered by the 
Board of Directors of the Placer County Water Agency; and
    WHEREAS, this Board has certified the Final Environmental Impact 
Report and Environmental Impact Statement prepared for the American 
River Pump Station Project to be in compliance with the requirements of 
the California Environmental Quality Act (CEQA); and
    WHEREAS, this Board, in reviewing the FEIS/FEIR and taking tile 
action set forth in this Resolution is hereby exercising its 
independent judgment and analysis; and
    WHEREAS, this Board has considered all written and oral comments 
presented to it at its meeting held July 11, 2002 and at this August 1, 
2002 meeting;
    NOW, THEREFORE, BE IT RESOLVED BY THE BOARD OF DIRECTORS OF THE 
PLACER COUNTY WATER AGENCY that:
    1. The Board hereby makes and adopts each of the Findings set forth 
in the document entitled ``CEQA Findings and Statement of Overriding 
Considerations of Placer County Water Agency for American River Pump 
Station, July 2002'' (``Findings'') attached hereto as Exhibit A;
    2. The commitments set forth in the Mitigation Monitoring Plan to 
be implemented by, the Placer County Water Agency, including the 
Conservation Measures described therein, are hereby accepted as binding 
on the Agency;
    3. The Board finds that in light of the mitigation measures that 
the Agency will undertake, all significant environmental effects that 
can feasibly be mitigated by Agency action will be mitigated;
    4. Some significant environmental impacts identified and described 
in the FEIS/FEIR, cannot be mitigated by action of the Agency, but 
rather must be and are expected to be mitigated by actions of the 
United States Bureau of Reclamation and California Department of Parks 
and Recreation, or other public agencies, in implementing the American 
River Pump Station Project;
    5. The Board finds that each of the overriding considerations set 
forth in Section XII of the Findings justifies the decision to approve 
Contract No. 02-LC-20-7790 and authorize its execution despite the 
significant impacts identified in the FEIS/FEIR. Those overriding 
considerations are set forth in the Findings attached hereto and 
explain why the benefit of the American River Pump Station Project 
outweighs the potential for significant environmental effects;
    6. Contract No. 02-LC-20-7790, attached hereto as Exhibit B, is 
hereby approved.
    The foregoing resolution was duly passed at a regular meeting of 
the Board of Directors of the Placer County Water Agency held on August 
1, 2002, by the following vote on roll call:
    AYES: DIRECTORS Ferreira, Lee, Roccucci, Wollan, and Chair Jarvis.
    NOES: DIRECTORS None.
    ABSENT: DIRECTORS None.
            Signed and approved by me after its passage this 1st day of 
            August 2002.

                                          Lowell M. Jarvis,
              Chair, Board of Directors, Placer County Water Agency

    Senator Murkowski. Thank you, Mr. Maisch.
    Just a couple questions for you this afternoon, gentlemen. 
Mr. Dieker, when you mentioned the area that we're talking 
about the transfer, you mentioned 9 acres and the buildings and 
offices that would be included with this transfer. Does the 
Yakima-Tieton Irrigation District currently perform the upkeep 
of these buildings at this time?
    Mr. Maisch. Yes, they do.
    Senator Murkowski. OK. So you've already factored in the 
cost of operation and maintenance. How much cost savings do you 
anticipate realizing with this transfer to the district?
    Mr. Maisch. [Inaudible.]
    Senator Murkowski. But really it's more savings in terms of 
the administrative efficiency that would be gained?
    Mr. Maisch. Possibly. I think it's possibly more----
    Senator Murkowski. Thank you. Mr. Maisch, you had stated in 
your written testimony that the Placer County Water Agency is 
responsible for any construction costs for a pump capacity that 
exceeds 100 cfs. Is the agency constructing a facility that 
provides for more than that, more than a 100 cfs? And then, if 
they are, how do you pay for this cost?
    You mentioned a little bit about the cost sharing, but if 
you could just explain it a little bit more.
    Mr. Maisch. [Inaudible.]
    Senator Murkowski. What about the annual operation and 
maintenance costs of the new pump station; is the agency able 
to take those on?
    And you had also stated in your written testimony that 
Placer County is one of the fastest growing counties in 
California. How do you anticipate that this new pumping 
facility--pumping station will help to meet this area's 
watering?
    Mr. Maisch. [Inaudible.]
    Senator Johnson. Mr. Maisch, your testimony summarizes the 
construction costs associated with the pump project, and I 
understand that your agency is paying for capacity in excess of 
100 cfs, which is $12.8 million. But there also appears to be a 
contribution of $17 million, and I'll ask for a little 
elaboration of your response to Mr. Sherman's questions.
    Is it correct that the PCWA is contributing then $29.8 
million in total? And if that's the case, could you explain to 
me then the additional $17 million, and what that's for?
    Mr. Maisch. [Inaudible.]
    Senator Johnson. OK. Mr. Dieker, the panel's transfer 
process that you've worked on with Reclamation sounds like a 
successful one. Are you currently interested in or already 
pursuing the transfer of title to any other facilities that 
serve your District?
    Mr. Dieker. No. We're not interested in any.
    Senator Johnson. OK. Very good.
    Madam Chairman, that's all that I have.
    Senator Murkowski. Thank you for completing your questions 
and I appreciate the testimony of you gentlemen. Again, thank 
you for traveling the distance to come and present before the 
subcommittee.
    With that, we stand adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Alex White Plume, Vice Chairman, on behalf of the Oglala 
                        Sioux Tribe, on S. 3404
    By resolution dated June 12, 2006, the Oglala Sioux Tribe fully 
supports the Reauthorization of the Mni Wiconi Rural Water Supply 
Project as proposed by S. 3404, which extends the completion date for 
construction from FY 2008 through FY 2012.
    The Oglala Sioux Tribe supports the extension recognizing that the 
history of appropriation levels for the project will not provide 
sufficient funding to complete the project in FY 2008 and that an 
additional four years of appropriations will be needed to provide the 
necessary funding. The need for extension of time is driven entirely by 
appropriations and not the capability of the Oglala Sioux Tribe or 
other sponsors to complete the project in FY 2008 if adequate funding 
were available.
    The concerns of the Oglala Sioux Tribe with respect to the 
additional four years necessary to fund the project are as follows:

          1. Human health benefits on the Pine: Ridge Indian 
        Reservation will be delayed. The Pine Ridge Indian Reservation 
        has not yet received Missouri River. water to replace unsafe 
        supplies, and the Oglala Sioux Tribe will be last to build its 
        distribution system.
          2. Overhead costs of the project will increase due solely to 
        the extension of the number of years required to complete 
        construction and cause the project costs to exceed the 
        currently authorized construction funding ceiling.
          3. Inflation will cause the remaining authorized construction 
        funding needs to increase and create a moving target for future 
        appropriation committees.

Delay in Human Health Benefits
    The Oglala Sioux Tribe has deep concerns that the project has not 
yet. delivered Missouri River water to the pine Ridge Indian 
Reservation after 12 years of construction. Residents in the No Flesh 
area and across much of the central and eastern areas of the 
reservation are waiting for a transition from groundwater to Missouri 
River water to relieve them of arsenic concentrations well above the 
EPA drinking water standard adopted this year. The arsenic. standards 
are taken seriously by the Tribal Council due to the connection between 
arsenic and the risk of lung and bladder cancer.
    The inability to deliver the Missouri River water to the Pine. 
Ridge. Indian Reservation after years of constructing the water 
treatment plant and Oglala off-Reservation core pipelines is due, in 
part, to the policy of the Bureau of Reclamation that required 
sequential construction of the pipelines. It has long been the policy 
of the Tribe to build pipelines from Pine Ridge toward the Missouri 
River while building concurrently from the Missouri River toward Pine 
Ridge. Had the Tribe been able to build pipelines as it proposed, all 
sponsors would have benefited from project water at the same time.
    Currently all sponsors are receiving Missouri River water except 
the Oglala Sioux Tribe. We are still waiting. Other sponsors have 
either finished their distribution systems or have completed most of 
their . . . system. The Oglala Sioux Tribe, however, has only been able 
to build 40% of the necessary pipelines, only those pipelines that 
deliver safe and adequate groundwater from our wells in the Arickaree 
formation of the Ogallala Aquifer. We will build the balance of our 
distribution system (60%) after Missouri River water reaches the 
Reservation near Wanblee. Because we are the last sponsor to be served 
and find ourselves largely alone to justify future appropriations, 
anxiety remains high that project support will diminish and that the 
distribution system on the Pine Ridge Indian Reservation will never be 
built as expected by the Tribe and as foreseen by the congressional 
delegation in the early years.
    The arsenic problem is not to be taken lightly. Maximum contaminant 
level (MCL) for arsenic was reviewed by EPA and lowered, from 50 to 10 
micrograms per liter (mg/l) on October 31, 2001.\1\ Water systems were 
to Comply by January 2006. The revision for arsenic followed a request 
for comment by EPA on 3 mg/l (feasibility level), 5 mg/l (proposed June 
2000), 10 mg/l (January 2001 rule) and 20 mg/l.\2\ The National 
Research Institute concluded that:
---------------------------------------------------------------------------
    \1\ Letter of October 31, 2001, from EPA Administrator, Christine 
Todd Whitman, to The Honorable C. W. Young, Chairman, Committee on 
Appropriations, House on Representatives.
    \2\ Federal Register, Vol. 66, No. 194, Oct. 5, 2001, p. 50761.

          . . . The results of this subcommittee's assessment are 
        consistent with the results presented in the NRC's 1999 Arsenic 
        in Drinking Water Report and suggest that the risks for bladder 
        and lung cancer incidence are greater than the risk on which 
        the EPA based its January 2001 pending rule . . .\3\
---------------------------------------------------------------------------
    \3\ Subcommittee to Update the 1999 Arsenic in Drinking Water 
Report, September 2000, Prepublication Copy, Arsenic and Drinking 
Water: 2001 Update, Committee on Toxicology, National Research 
Institute, p. 12.

    Earlier concerns with arsenic that influenced the adoption of the 
older standard at 50 mg per liter were related to a risk assessment for 
skin cancer based on Taiwanese studies involving a low-income 
population with poor diets and low quality of medical care exposed to 
high concentrations of arsenic. More recently, studies have been 
conducted on the same Taiwanese population in combination with evidence 
from Chile and Argentina related to the risk of bladder and lung 
cancers. On the basis of a cost and benefit analysis, as reproduced in 
Table 1, EPA concluded that the feasible level for arsenic regulation 
was 3 mg per liter, but EPA proposed an arsenic MCL of 5 mg per liter.
    At the 3 mg per liter level (Table 1), total national costs to 
community water systems to remove arsenic were estimated by EPA to 
range between $643 and $753 million.\4\ Bladder cancer benefits 
(reduced incidence and associated costs) were estimated to range 
between $43.6 and $104.2 million, and lung cancer benefits were 
estimated to range between $47.2 and $448 million.\5\ If the upper 
level of costs were used ($753 million) and the upper level of benefits 
in reduction of the cost of cancer incidence were used ($552.2 
million), the benefit to cost ratio of removing arsenic would be 
calculated at .73 or the equivalent of $0.73 in benefits for each $1.00 
in cost to remove arsenic. As shown in Table 1, the benefit to cost 
ratio increases for decreasing levels of arsenic removal. The EPA 
conclusion of feasibility at the 3 mg per liter level was based on a 
calculation of benefit to cost ratio using the upper limit of benefits 
and the lower limit of costs.
---------------------------------------------------------------------------
    \4\ Federal Register, October 20, 2000, National Primary Drinking 
Water Regulations; Arsenic and Clarifications to Compliance and New 
Source Contaminants Monitoring, Vol. 65, No. 204, p. 63031, et seq.
    \5\ Ibid.
---------------------------------------------------------------------------
    Table 2 also presents the risk of lifetime incidence of bladder and 
lung cancer per 100,000. members of the population for each of the 
arsenic MCL levels under consideration. There are numerous analyses 
presented by EPA of risk factors based on a variety of assumptions and 
methods, and only a single set of conclusions is presented in Table 2, 
The conclusions are illustrative of the benefits of lowering the 
arsenic MCL from 20 micrograms (mg) per liter with 84 lifetime 
incidences. per 100,000 persons to 3mg per liter with 24 lifetime 
incidences per 100,000 persons.\6\ Note that the estimates of lung 
cancer incidence are comparable to those of bladder cancer, leading EPA 
to conclude that ``. . . based upon this most recent risk information . 
. . the combined risk of excess cases of lung and bladder cancer 
attributable to arsenic in drinking water could be at least twice that 
of bladder cancer alone . . .'' \7\
---------------------------------------------------------------------------
    \6\ Ibid, p. 63032
    \7\ Ibid.

                 Table 1.--ESTIMATED COSTS AND BENEFITS FROM REDUCING ARSENIC IN DRINKING WATER
                                              [1999 $ in millions]
----------------------------------------------------------------------------------------------------------------
                                              Total        Total
                                             National     Bladder    ``What If''    Cost     Benefit  Benefit to
          Arsenic Level  (mg/l)              Costs to      Cancer    Lung Cancer    Upper     Upper   Cost Ratio
                                               CWSs       Benefits     Benefits     Limit     Limit
----------------------------------------------------------------------------------------------------------------
3........................................   $643.1-753  $43.6-104.2    $47.2-448    753.0     552.2       0.73
5........................................  377.3-441.8    31.7-89.9     35.0-384    441.8     473.9       1.07
10.......................................  163.3-191.8    17.9-52.1     19.6-224    191.8     276.1       1.07
20.......................................    61.6-72.9     7.9-29.8      8.8-128     72.9     102.7       1.44
----------------------------------------------------------------------------------------------------------------
Based on EPA in Federal Register; October 20, 2000


    Table 2.--LIFETIME INCIDENCE, RISKS PER 100,000 POPULATION, 90TH
                               PERCENTILE
                          [1999 $ in millions]
------------------------------------------------------------------------
                                Morales Risk                 Upper Limit
     Arsenic Level  (mg/l)         Bladder    Morales Risk    Combined
                                   Cancer      Lung Cancer      Risk
------------------------------------------------------------------------
3.............................      10-12         10-12          24
5.............................      18-20         17-21          41
10............................      26-31         27-31          62
20............................      35-41         34-43          84
------------------------------------------------------------------------
Based on EPA in Federal Register, October 20, 2000

    Arsenic in groundwater in many parts of the Pine Ridge Indian 
Reservation is at concentrations between 20 and 50 mg per liter, and 
Missouri River water will reduce concentrations below 3 mg per liter. 
Therefore, the Tribal Council and membership are anxiously awaiting 
Missouri River water to lower cancer risks from arsenic alone by well 
over 60 lifetime incidences per 100,000 persons or 6 lifetime 
incidences per 10,000 members of our population. Our future generations 
will benefit greatly by the improvement in arsenic concentrations 
stemming from the delivery of Missouri River water.
    A similar analysis can be presented to demonstrate the human health 
impacts from uranium concentrations in our groundwater. Both uranium 
and arsenic are naturally occurring elements in our groundwater and are 
unavoidable absent delivery of water from the Missouri River as 
intended by the Mni Wiconi project.
    There are additional human health benefits to be derived from 
improvements in the quality of our drinking water and an adequate 
supply for economic development brought by the Mni Wiconi Project. The 
Mni Wiconi Project and the industry that will follow will raise our 
income levels, which, in turn, will lower the extraordinary rates of 
mortality among the Indian population of our Reservation. Information 
has been compiled in the Great Plains to show that high mortality rates 
are related to low income and that the present value of Indian health-
care costs in our region over the next 50 years will be as much as $0.8 
to $1.6 billion higher than non-Indian health care costs for heart 
disease, cancer and diabetes in each 24,000 members of the Indian 
population. Improvement in the economy of the Pine Ridge Indian 
Reservation, coming from the Mni Wiconi Project, will lower these 
extraordinary costs.
    The Mni Wiconi Project has success stories on the Pine Ridge Indian 
Reservation. Before the project was authorized, for example, high 
nitrate contamination. and the risk to newborns was a concern of the 
Women of All Red Nations. Dr. Thomas Welty wrote extensively about 
water borne diseases and hepatitis-C on the Reservation. Upon project 
authorization, the (Vida Sioux Tribe immediately built the emergency 
pipeline from wells with good water quality to the community of Oglala. 
This was followed additional well development and pipelines to the 
areas around Slim Buttes, along American Horse Creek, north of Kyle, 
from Kyle to Sharp's Corner, from Sharp's Corner to Rocky Ford and Red 
Shirt, and to the communities of Manderson and Porcupine. This brought 
high-quality groundwater where it could be developed to many rural 
households and to several small communities. Since implementation of 
these projects, waterborne diseases have diminished or been eliminated, 
hepatitis-C has not occurred, and infants have not been lost to 
nitrogen contamination.
    There is much more to be done, but these steps have been effective. 
The delivery of Missouri River water as soon as possible to the Pine 
Ridge Indian Reservation will alleviate other extreme health conditions 
and greatly improve the quality of life of our members, actions which 
are within the original goals of the Act.
An Additional Four Years of Direct and Overhead Costs
    While we are fully supportive of the extension of the construction 
schedule from FY 2008 through FY 2012, each year of additional 
extension results in new costs for necessary activities that cannot be 
eliminated. These activities will be continued with minimal staff in 
numbers only adequate to continue necessary functions. Costs will 
include the following:

    1) Salaries and fringes for personnel to:
          a) administer design and construction. contracts
          b) inspect construction
          c) acquire easements
          d) prepare as-built drawings for operation, maintenance and 
        replacement
          e) coordinate with other sponsors, the Bureau of Reclamation, 
        public and other federal agencies
    2) Non-salary costs for administrative functions
          a) utilities and communications
          b) travel and vehicles
          c) office costs (photocopy, mail, other normal office 
        expenses)
          d) establish permanent record system consisting of electronic 
        filing systems and project portfolios
    3) Reclamation Oversight Costs
    4) Indefinite quantities for interconnecting new homes to the 
Project distribution system after FY 2008. (The population on the Pine 
Ridge Indian Reservation is increasing at a rate of 27% per decade, 
which is equivalent to about 1,650 persons in the period between 2008 
and 2012. The new population during the period of construction 
extension will require connections to the Mni Wiconi Project for 
household uses).

    The costs during an extended construction schedule-are real costs. 
Funds are necessary to retain staff and functions to carry on design 
and construction. The additional costs for the additional construction 
extension can only be estimated at this time at about $12 million. 
Actual costs will become more clear and definable by 2009 and 2010. 
Without an amendment of the construction ceiling to include these 
costs, it will be necessary to reduce the miles of pipeline built to 
cover the unavoidable costs. There is a need to coordinate and 
implement strategic planning to ensure overall project activities are 
completed in a satisfactory manner. The Oglala Sioux Tribe will seek a 
future adjustment of the construction ceiling to ensure that the 
original intent of the Mni Wiconi Project Act and the Final Engineering 
Report, approved by the Secretary of interior, is realized and that the 
distribution system within the PiAe Ridge Indian Reservation is not 
left incomplete.
Appropriation Levels after FY 2006 Must Increase to Complete the 
        Project in FY 2012
    A matter of serious concern to the Oglala Sioux Tribe, last sponsor 
to be served with water from the Missouri. River to replace toxic 
groundwater, is the need for an increased level of appropriations to 
complete the project by FY 2012. Irrespective of the degree of future 
inflation, the level of appropriations needs significant increase above 
the $23 million level in recent years if the project is to be completed 
by FY 2012.
    Table 3 presents construction cost indices compiled by the Bureau 
of Reclamation for several tracking items since 1992 (pumping plants, 
drains and laterals and a composite construction trend).\8\ Average 
construction cost increases for pumping stations for naming 5-years 
ranged from 1.81% (5-years ending in 2000) to 4.20% (5 years ending in 
2005). Average construction cost increases for pipelines in rural water 
systems (Bureau of Reclamation uses laterals-and drains to measure 
pipeline cost trends) ranged from 2.99% to 7.37%. The average annual 
rate of increase was lowest for the 5-year period ending in 2000 and 
2001 and highest for the 5-year period ending in 2005 for all 
categories. Figure 1* displays the 5-year running cost trends from 
Table 3.
---------------------------------------------------------------------------
    \8\ Bureau of Reclamation Construction Cost Trends, http://
www.usbr,gov/pmts/estimate/cost_trend.html.
    * Figure 1 has been retained in committee files.
---------------------------------------------------------------------------
    The Oglala Sioux Tribe is extremely concerned about the 
construction cost trend in 2004 and 2005 with pipeline construction 
costs increasing at 5.65% and 6.60%, respectively. Bidding experience 
in 2006 is confirming a significant upward trend. Therefore, looking 
forward, construction cost increases trending above 7%, particularly 
for pipelines, the largest component in the project, may be reasonably 
likely. Table 4 presents the impact of 7% inflation on levels of 
appropriation needed to complete the project by FY 2012, and 
demonstrates that an average annual appropriation of $29.8 million 
would be required. Table 5 summarizes the levels of appropriation, 
ranging from $280 miliion to $37.5 million on the average, needed to 
overcome inflation ranging from 5% to 15% respectively.

                                     Table 3.--AVERAGE ANNUAL CONSTRUCTION COST INDEXING BASED ON RECLAMATION TRENDS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            Index                  Annual Increase, %        Previous 5-Year Average, %
                                                               -----------------------------------------------------------------------------------------
                                                                Pumping  Laterals             Pumping  Laterals             Pumping  Laterals
                                                                 Plants  & Drains  Composite   Plants  & Drains  Composite   Plants  & Drains  Composite
--------------------------------------------------------------------------------------------------------------------------------------------------------
1992..........................................................    188      169        188
1993..........................................................    192      176        194      2.13%     4.14%     3.19%
1994..........................................................    197      182        199      2.60%     3.41%     2.58%
1995..........................................................    206      190        207      4.57%     4.40%     4.02%
1996..........................................................    215      202        212      4.37%     6.32%     2.42%     3.41%    4.56%      3.05%
1997..........................................................    218      216        218      1.40%     6.93%     2.83%     3.23%    5.25%      2.96%
1998..........................................................    222      220        221      1.83%     1.85%     1.38%     3.03%    4.85%      2.66%
1999..........................................................    226      226        227      1.80%     2.73%     2.71%     2.34%    4.43%      2.33%
2000..........................................................    231      238        233      2.21%     5.31%     2.64%     1.81%    4.19%      2.39%
2001..........................................................    235      243        236      1.73%     2.10%     1.29%     1.89%    2.99%      2.00%
2002..........................................................    241      251        242      2.55%     3.29%     2.54%     2.07%    3.35%      2.30%
2003..........................................................    247      262        250      2.49%     4.38%     3.31%     2.25%    3.76%      2.44%
2004..........................................................    263      303        274      6.48%    15.65%     9.60%     3.30%    6.22%      4.14%
2005..........................................................    277      323        288      5.32%     6.60%     5.11%     4.20%    7.37%      5.10%
--------------------------------------------------------------------------------------------------------------------------------------------------------


 Table 4.--APPROPRIATION LEVEL NEEDED TO COMPLETE THE MNI WICONI PROJECT
                        IN FY 2012, 7% INFLATION
 
 
------------------------------------------------------------------------
Remaining Costs after FY 2006.........................    $130,000,000
Added Direct and Overhead Costs after FY 2008, 2005         12,000,000
 Dollars..............................................
                                                       -----------------
    Total Costs.......................................     142,000,000
 
Historic Rate of Appropriations.......................      22,900,000
Authorized Completion Date............................           2,008
Appropriations Schedule...............................               6
Assumed Cost Indexing (inflation).....................              7%
------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                              Appropriations
                                                Fiscal  --------------------------------------------------------
                                                 Year     Remaining Amount    Complete 2012         Uniform
----------------------------------------------------------------------------------------------------------------
1............................................    2007      $151,040,000        $24,987,943        $29,791,004
2............................................    2008       130,699,426         26,737,099         29,791,004
3............................................    2009       107,972,012         28,608,606         29,791,004
4............................................    2010        83,653,679         30,611,305         29,791,004
5............................................    2011        57,633,063         32,754,096         29,791,004
6............................................    2012        29,791,004         35,046,883         29,791,004
7............................................    2013                 0
                                              ------------------------------------------------------------------
    Total....................................                                  178,746,021        178,746,021
----------------------------------------------------------------------------------------------------------------


 Table 5.--ANNUAL APPROPRIATIONS AND TOTAL COSTS TO COMPLETE MNI WICONI
             PROJECT BY FY 2012 FOR RANGE OF INFLATION RATES
 
 
------------------------------------------------------------------------
Current Sunset Date...................................            2008
October 2006 Remaining Federal Cost...................    $142,000,000
------------------------------------------------------------------------


------------------------------------------------------------------------
                                       Appropriations Needed thru 2012
 Annual Cost Indexing (Inflation)  -------------------------------------
               Rate                       Total          Average Annual
------------------------------------------------------------------------
5.................................    $167,859,000        $27,976,000
7.................................     178,746;000         29,791,000
10................................     195,625,000         32,604,000
15................................     225,130,000         37,522,000
------------------------------------------------------------------------

Additonal Concerns
    The declining performance of the Bureau: of Indian Affairs in the 
processing of easements is a concern to the Oglala Sioux Tribe and 
affects our ability to complete the project within the Pine Ridge 
Indian Reservation. In the early years of the project the enthusiasm of 
the Bureau of Indian Affairs was high, and the processing of our 
easements had a priority. Today the processing of easements is 
extremely tedious and slow. The Tribe is currently waiting for Bureau 
of Indian Affairs to process easements for the Wanblee North powerline 
upgrade, the Wanblee to Hisle function pipeline and the Hisle Junction 
to Kyle pipeline. Construction will be delayed until these easements 
are processed. Designs have been approved. Bidding and award of 
construction projects should be ongoing, but our cooperative agreement 
with the Bureau of Reclamation requires that easements must be acquired 
throughout the construction area before bidding.
Our Sincere Appreciation
    The South Dakota delegation has been highly supportive of the 
Oglala Sioux Tribe and other sponsors during the course of this-
project, and their efforts are sincerely appreciated. We understand 
that the delegation supports (1) the formation of a task force to 
investigate the high rates of mortality and morbidity associated with. 
heart, cancer, diabetes and other prominent diseases on the Pine Ridge 
Indian Reservation and (2) a congressional hearing to report the task 
force findings. The task force can hopefully be comprised of 
individuals from the National Institute of Health, Center for Disease 
Control or comparable organizations that have credentials and 
background to compare and correlate-the level of poverty, incidence of 
disease, human costs and costs to the United States Treasury for health 
care of populations on and off the Indian Reservations in the Great 
Plains. The Oglala Sioux Tribe intends to be heavily engaged in the 
implementation of the task force and preparation for the heating.
    The subcommittee's action to extend the project from FY 2008 
through FY 2012, the highest priority for successful completion of this 
project, is greatly appreciated by the 0glala Sioux Tribe. We are 
hopeful that the subcommittee Will examine our testimony carefully and 
can take cognizance of the additional steps needed to complete the 
project and realize the benefits intended and expected by Congress and 
the Tribe.
                                 ______
                                 
  Statement of Don Christiansen, General Manager, Central Utah Water 
                    Conservancy District, on S. 1812
    My name is Don Christiansen and as the General Manager of the 
Central Utah Water Conservancy District, I appreciate the opportunity 
to express my support for S. 1812 before this Subcommittee. The Central 
Utah Water Conservancy District, as a subdivision of the state of Utah, 
was designated in 1964 to be the local entity to manage the 
construction, operation and the financing for the Central Utah Project 
(CUP). The purpose of the CUP is to be sure that the state of Utah 
maximizes the use of water allotted from the Colorado River based on 
the Colorado River Compact. In addition, the District serves as a 
wholesaler of water to other cities and agencies.
    The Central Utah Project includes five specific units. Each unit 
consists of a series of dams, pipelines, reservoirs, tunnels, and 
aqueducts designed to assist in meeting the water needs of ten 
counties. The Bonneville Unit of the CUP was planned to develop and 
export water from the High Uinta Mountains in the eastern part of the 
state and bring it through a series of reservoirs, tunnels and 
pipelines to the populated Wasatch Front. Early on water was planned to 
be delivered as far south as the Sevier River Drainage through an 
Irrigation and Drainage delivery system. Under that early plan Juab 
County would have received a large amount of project water.
    However, the original planning requirements for the Bonneville Unit 
water have been altered over time. Millard and Sevier counties in 
central Utah have withdrawn from the Central Utah Water Conservancy 
District and now virtually all of the water is planned to remain along 
the Wasatch Front for use in Wasatch, Utah and Salt Lake Counties to 
meet the water needs of the increasing population growth in those 
areas. Utah, as a whole, grew nearly 30 percent in the last decade and 
some urban areas within those counties are growing at a rate of double 
digits per year. Juab County has remained part of the Central Utah 
Water Conservancy District and has paid about $3,000,000 in property 
taxes into the District and continues to pay property taxes each year 
with the expectation of receiving benefits from maintaining membership 
in the District.
    The Reclamation Projects Authorization and Adjustment Act of 1992 
(Public Law 102-575), which included the authorization of the Central 
Utah Project construction, has been a huge success in Utah. Completed 
projects include the Wasatch County Water Efficiency Project, 
Completion of the Diamond Fork System, thirty five water conservation 
projects which last year conserved over 90,000 acre-feet of water, a 
conjunctive use project in Salt Lake County, and the eleven million 
dollar East Juab Water Efficiency Project in Juab County. Projects 
currently under construction include' the Uinta Basin Replacement 
Project, five additional water conservation projects, and ten local 
development projects under section 206 of P.L. 102-575. A Record of 
Decision has been signed for the Utah Lake System which when completed 
will deliver an additional 60,000 acre-feet per year of municipal water 
to the rapid growing parts of Utah in Salt Lake and Utah Counties.
    Passage of S. 1812 will give Juab County an additional opportunity 
to benefit from P.L. 102-575 by making Juab County eligible for 
participation in conjunctive use funding to enable the county to study 
and construct conjunctive use projects. This process of ``conjunctive 
use'' will allow Juab County to maximize surface water flows and 
groundwater sources in a coordinated manner by storing surplus surface 
flows in existing groundwater aquifers, which results in increasing the 
benefit of both their respective water resources. Currently, this 
program is limited to the Wasatch Front counties of Salt Lake, Utah, 
Davis, Wasatch, and Weber. Juab County should be made eligible to 
receive funds for projects to develop comprehensive conjunctive use 
water management in their county.
    In conclusion, as the second driest state in the nation, Utah faces 
unique challenges with inadequate existing water supplies compounded 
with high growth rates and widely varying annual precipitation. In 
light of these circumstances, the Central Utah Water Conservancy 
District fully supports the addition of Juab County to the conjunctive 
use program. The coordination of water resources is vital to developing 
an efficient system that will better utilize and maximize existing 
water resources. This bill will only enhance Juab County's ability to 
meet the water needs of its citizens.
    Thank you.
                                 ______
                                 
 Statement of Bill Jones & the C.W. ``Bill'' Jones Family, on H.R. 2383
    Senators:
    Thank you for taking time to consider this recognition of a great 
leader that helped build California's water infrastructure. As many of 
you are aware, the area of California water is a very difficult and 
often time's contentious place to develop solutions. Yet our father was 
instrumental in bringing people together to generate consensus for all 
of California's benefit. He had a great gift of always being able to 
put himself in the other parties' position to try and understand 
problems when they occurred. We saw him many times sacrifice his own 
position for the good of California as a whole.
    He was a pioneer in the area of California Water and development in 
the San Joaquin Valley as well as the State for over 25 years. Our 
father was the President of the San Luis and Delta-Mendota Water 
Association/Authority for over 20 yrs. While serving as President of 
the San Luis and Delta-Mendota Water Authority, he was directly 
involved with the Central Valley Project as well as the State Water 
Project in numerous capacities. He was also President of the Firebaugh 
Resource Conservation District, the Las Deltas Mutual Water Company, 
the Silver Creek Drainage District and also Vice President of the 
Firebaugh Canal Water District. He was also appointed by Gov. Ronald 
Reagan to the California State Water Commission. In recognition of the 
years of dedicated and hard work performed by C.W. ``Bill'' Jones, he 
was presented with California State Senate Resolution No. 1198 on 
August 22, 1997
    We would appreciate Senator Domenici & the Committee's support for 
this measure, which redesignates the facility of the Bureau of 
Reclamation located at 19550 Kelso Road in Byron, California known as 
the Tracy Pumping Plant to be known as the ``C.W. `Bill' Jones Pumping 
Plant.''
    Thank You.

                                    

      

</pre></body></html>
